<html>
<title> - THE PRESIDENT'S 2016 FISCAL YEAR BUDGET: ADMINISTRATION PRIORITIES FOR THE U.S. ENVIRONMENTAL PROTECTION AGENCY</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]









THE PRESIDENT'S 2016 FISCAL YEAR BUDGET: ADMINISTRATION PRIORITIES FOR 
                THE U.S. ENVIRONMENTAL PROTECTION AGENCY

=======================================================================

                                (114-9)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 18, 2015

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

93-776-PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001












             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman

DON YOUNG, Alaska                    PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee,      ELEANOR HOLMES NORTON, District of 
  Vice Chair                         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
FRANK A. LoBIONDO, New Jersey        CORRINE BROWN, Florida
SAM GRAVES, Missouri                 EDDIE BERNICE JOHNSON, Texas
CANDICE S. MILLER, Michigan          ELIJAH E. CUMMINGS, Maryland
DUNCAN HUNTER, California            RICK LARSEN, Washington
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHAEL E. CAPUANO, Massachusetts
LOU BARLETTA, Pennsylvania           GRACE F. NAPOLITANO, California
BLAKE FARENTHOLD, Texas              DANIEL LIPINSKI, Illinois
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
RICHARD L. HANNA, New York           ALBIO SIRES, New Jersey
DANIEL WEBSTER, Florida              DONNA F. EDWARDS, Maryland
JEFF DENHAM, California              JOHN GARAMENDI, California
REID J. RIBBLE, Wisconsin            ANDRE CARSON, Indiana
THOMAS MASSIE, Kentucky              JANICE HAHN, California
TOM RICE, South Carolina             RICHARD M. NOLAN, Minnesota
MARK MEADOWS, North Carolina         ANN KIRKPATRICK, Arizona
SCOTT PERRY, Pennsylvania            DINA TITUS, Nevada
RODNEY DAVIS, Illinois               SEAN PATRICK MALONEY, New York
MARK SANFORD, South Carolina         ELIZABETH H. ESTY, Connecticut
ROB WOODALL, Georgia                 LOIS FRANKEL, Florida
TODD ROKITA, Indiana                 CHERI BUSTOS, Illinois
JOHN KATKO, New York                 JARED HUFFMAN, California
BRIAN BABIN, Texas                   JULIA BROWNLEY, California
CRESENT HARDY, Nevada
RYAN A. COSTELLO, Pennsylvania
GARRET GRAVES, Louisiana
MIMI WALTERS, California
BARBARA COMSTOCK, Virginia
CARLOS CURBELO, Florida
DAVID ROUZER, North Carolina
LEE M. ZELDIN, New York

                                  (ii)

  


            Subcommittee on Water Resources and Environment

                       BOB GIBBS, Ohio, Chairman

CANDICE S. MILLER, Michigan          GRACE F. NAPOLITANO, California
DUNCAN HUNTER, California            DONNA F. EDWARDS, Maryland
ERIC A. ``RICK'' CRAWFORD, Arkansas  JOHN GARAMENDI, California
DANIEL WEBSTER, Florida              LOIS FRANKEL, Florida
JEFF DENHAM, California              JARED HUFFMAN, California
REID J. RIBBLE, Wisconsin            EDDIE BERNICE JOHNSON, Texas
THOMAS MASSIE, Kentucky              ANN KIRKPATRICK, Arizona
TOM RICE, South Carolina             DINA TITUS, Nevada
RODNEY DAVIS, Illinois               SEAN PATRICK MALONEY, New York
MARK SANFORD, South Carolina         ELIZABETH H. ESTY, Connecticut
TODD ROKITA, Indiana                 ELEANOR HOLMES NORTON, District of 
JOHN KATKO, New York                 Columbia
BRIAN BABIN, Texas                   RICHARD M. NOLAN, Minnesota
CRESENT HARDY, Nevada                PETER A. DeFAZIO, Oregon (Ex 
GARRET GRAVES, Louisiana             Officio)
DAVID ROUZER, North Carolina
BILL SHUSTER, Pennsylvania (Ex 
Officio)

                                 (iii)
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               WITNESSES

Kenneth J. Kopocis, Deputy Assistant Administrator, Office of 
  Water, U.S. Environmental Protection Agency:

    Testimony....................................................     5
    Prepared statement...........................................    48
    Responses to questions for the record from the following 
      Representatives:

        Hon. Bob Gibbs of Ohio...................................    51
        Hon. Duncan Hunter of California.........................    60
Hon. Mathy Stanislaus, Assistant Administrator, Office of Solid 
  Waste and Emergency Response, U.S. Environmental Protection 
  Agency:

    Testimony....................................................     5
    Prepared statement...........................................    63
    Responses to questions for the record from Hon. Bob Gibbs, a 
      Representative in Congress from the State of Ohio..........    74

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


 
 THE PRESIDENT'S 2016 FISCAL YEAR BUDGET: ADMINISTRATION PRIORITIES FOR 
                THE U.S. ENVIRONMENTAL PROTECTION AGENCY

                              ----------                              


                       WEDNESDAY, MARCH 18, 2015

                  House of Representatives,
   Subcommittee on Water Resources and Environment,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:36 a.m. in 
Room 2167, Rayburn House Office Building, Hon. Bob Gibbs 
(Chairman of the subcommittee) presiding.
    Mr. Gibbs. Good morning. The Subcommittee on Water 
Resources and Environment of the Committee on Transportation 
and Infrastructure will come to order.
    Unanimous consent request. I ask unanimous consent that the 
hearing record be kept open for 30 days after this hearing in 
order to accept other submissions of written testimony for the 
hearing record.
    [No response.]
    Mr. Gibbs. Hearing no objection, so ordered.
    Today we have the hearing dealing with the President's 
budget for EPA and water. And we have Mr. Ken Kopocis?
    Mr. Kopocis. It is Kopocis.
    Mr. Gibbs. Kopocis. OK.
    Mr. Kopocis. Thank you.
    Mr. Gibbs. He is the Deputy Assistant Administrator, Office 
of Water. And I think--congratulations. I think you are fairly 
new in the position.
    Mr. Kopocis. In this capacity. Yes, sir. Since last August.
    Mr. Gibbs. Congratulations. And then also, Mr. Mathy 
Stanislaus?
    Mr. Stanislaus. It is Mathy Stanislaus.
    Mr. Gibbs. Stanislaus. You guys have to get easier names 
for me, I will tell you.
    [Laughter.]
    Mr. Gibbs. He is the Assistant Administrator, the Office of 
Solid Waste and Emergency Response to the U.S. EPA.
    We will start--my opening statement. This is the hearing 
for ``The President's 2016 Fiscal Year Budget: Administration 
Priorities for the U.S. Environmental Protection Agency.'' 
Again, I would like to welcome everyone to the hearing today.
    When Congress wrote the Clean Water Act and other Federal 
environmental statutes some 40 years ago, it envisioned the 
Federal Government and the States would be equal partners in 
solving the Nation's environmental problems. For many years the 
Federal-State partnership has worked well. However, in the past 
few years, we have seen a change in the approach taken by the 
Environmental Protection Agency that may undermine the balance 
between the Federal and State partnership that has long 
existed.
    EPA is now taking away the flexibility that States and 
local governments need to address their environmental issues. 
EPA is aggressively moving forward simultaneously on several 
regulatory fronts, with the result that the States and local 
governments, as well as the private regulated community, are 
facing increasing regulatory, enforcement, and financial 
pressures to address a multitude of burdensome regulatory 
requirements that recently have become EPA priorities.
    I am particularly concerned about EPA's proposed waters of 
the United States rule. This proposed rule will substantially 
increase the regulatory burdens for States, local governments, 
and businesses, especially small businesses. This proposed rule 
is on top of the other unfunded mandates advanced by the EPA, 
with the result that many local communities and private 
entities are now increasingly struggling for how to pay for 
complying with these mandates. EPA's aggressive actions have 
created financial pressures and regulatory uncertainty for 
States, local governments, and the regulated community, and 
have had a chilling effect on the Nation's economy and job 
creation.
    The EPA budget put forth from the administration for fiscal 
year 2016 does nothing to alleviate my concerns. While the EPA 
is imposing more unfunded regulatory burdens on communities, 
businesses, and citizens, the administration is calling for a 
reduction in spending for programs that assist communities in 
their efforts to come into compliance with those regulations, 
like the Clean Water State Revolving Fund, the SRF program.
    Sadly, not only is the EPA adding to the burden of rules 
and regulations and reducing programs to help State and local 
government come into compliance, but the EPA is also putting 
more boots on the ground to track down those who have 
difficulty coming into compliance, with questionable benefits 
to the environment.
    We all want clean water. However, we also need to have a 
strong economy so we can make the investments that new 
regulations require. We need EPA, as the partner agency, to 
work to restoring its trust with State and local governments. 
Today is not the day to impose new burdens on the American 
people. We need to help people come into compliance with the 
multitude of regulations we already have, and make significant 
progress in developing and creating long-term jobs and a 
stronger economy before we can tolerate more expensive 
regulations.
    I now recognize my ranking member, Mrs. Napolitano, for any 
remarks she may have.
    Mrs. Napolitano. Thank you, Mr. Chairman, for calling this 
first hearing of the Subcommittee on Water Resources and 
Environment for the 114th Congress. And I would welcome--but he 
is not here yet--Congressman Jared Huffman, California's Second 
Congressional District, the newest Democratic member on the 
subcommittee--both have background on the Committee on Natural 
Resources--and is the ranking member of the Subcommittee on 
Water, Power and Oceans of the Committee on Natural Resources. 
So we will be working with him on issues that we may overlap. 
And I do look forward to working together on water issues.
    Mr. Chairman, this is my first hearing at the Subcommittee 
on Water Resources and Environment as ranking member. And thank 
you for your efforts in welcoming me to the subcommittee, and 
for your offer to work collaboratively with our side of the 
aisle on some issues, including those related to infrastructure 
investment and implementation of WRRDA. While I do not expect 
that we will always agree--and I say that laughingly--I do look 
forward to building a strong and transparent working 
relationship with you and all of the members of this 
subcommittee. The American people want us to continue the 
bipartisan traditions of this subcommittee to accomplish tasks 
that our constituents have sent us here to do, to address the 
water resources challenges facing our Nation.
    One of the greatest challenges facing us today is crumbling 
infrastructure. Over the years we have spoken to, listened to, 
countless mayors, city and county officials, stakeholders, on 
the issues to discuss water-related challenges in all of our 
communities, and about the lack of attention, or the lack of 
progress, if you will, in addressing these challenges. 
Unfortunately, much of the lack of progress can be traced to 
the slow and steady decline in Federal investment to critical 
water-related infrastructure, which is a good segue to today's 
hearing on the Environmental Protection Agency's 2016 budget 
request.
    Very few Federal agencies are as praised or as vilified as 
EPA. It depends on which side of the fence you are on. 
Depending on your point of view, this agency--created by a 
Republican administration, and charged by Congress with 
safeguarding the health of the public and of the environment--
is often portrayed either as the last safeguard of our natural 
environment, or as an overzealous impediment to unfettered 
industrial growth.
    Well, I tell you, if it is industrial growth versus our 
people and our environment, I will tell you where I come from.
    I suppose the reality is somewhere in the middle, where 
this agency makes a concerted effort in reaching a sustainable 
balance between the health of the public, the health of the 
environment, and the health of the economy, while working with 
Congress to be effective in attaining these mutual goals. We 
must agree on the need to balance healthy, economic growth 
while protecting the health of the public and of the 
environment for generations to come.
    In my own district the health of our communities and our 
economies is integrally tied to the health and availability of 
the natural resources, and specifically, the availability of 
clean, safe drinking water. Unfortunately, ensuring this 
careful balance will all but be impossible if EPA must face 
budgetary cuts called for in the recent House Republican budget 
resolutions.
    Back in 2011, Congress approved the Budget Control Act that 
drastically underfunded the discretionary budget authority of 
the Federal Government, including EPA. I voted against the 
Budget Control Act because of its devastating cuts to both 
mandatory and discretionary programs relied upon by our 
Nation's seniors, our cities, our communities, and by our 
constituency. Yet, last year, the House Republican majority 
voted to approve a budget which calls for even greater cuts to 
these programs, jeopardizing our Nation's economic recovery, 
attacking our Nation's efforts to promote a global economy, and 
undermining efforts to create additional good-paying jobs in 
the U.S.
    According to a summary of the budget from 2016, this House 
majority is urging a drastic reduction in nondefense 
discretionary spending over the next 10 years, cut by $1.3 
trillion, or 24 percent below the amount, just to keep pace 
with the inflation. In fiscal year 2024 alone, the House budget 
would be 30 percent below the amount necessary simply to keep 
pace with the fiscal year 2014 spending budget.
    Let's not forget these cuts come at a time when we should 
increase investment in our crumbling infrastructure. For 
example, according to EPA's most recent assessment, our States 
need approximately $300 billion--with a B--for wastewater and 
stormwater systems over the next 20 years. Without question, 
such a draconian proposal would have a devastating impact on 
our agency's ability to carry out statutory obligations.
    As witnesses later will testify, the agency had to 
prioritize how to spend its declining resources, and has had to 
make tough choices in not funding programs and policies that 
are important to our business, to our industries, to our 
communities, and to our Nation. If cuts called for in the 
Budget Control Act are allowed to continue or, worse, to 
deepen, as proposed in this budget, there will be consequences 
in the ability of EPA to meet statutory obligations, causing 
unintended and possibly intended consequences.
    If the cuts called for in the 2015 Republican budget are 
implemented, it will impair EPA's ability to respond to 
industrial spills and other contamination outbreaks that 
threaten local drinking water, such as recently occurred in 
North Carolina and Indiana and Ohio and Montana and West 
Virginia. It is up to the taxpayer to bear the cost of the 
cleanup.
    In all of these instances, EPA officials will provide 
critical expertise to minimize the extent of the contamination, 
and to restore local drinking water supplies as quickly as 
possible.
    Similarly, this subcommittee has heard testimony of a 
number of businesses and industries that rely on Federal 
regulatory agencies for Clean Water Act permits, and their 
concern with the complexity and delays in obtaining these 
permits. However, under the budget recommended by the House 
majority, both the regulatory office of the Corps and permits 
division of EPA would face potential significant budget cuts. 
Result would be it would take longer, because of the 
underfunded staff.
    Further, if these discretionary spending cuts are 
implemented uniformly, we would expect continued cuts to other 
programs with widespread support for our communities, such as 
the Clean Water and Drinking Water State Revolving Funds, the 
Superfund cleanup, the Brownfields remediation, and we can go 
on and on.
    And I would just like to say that I have heard others say 
that cutting the EPA budget will not have an adverse impact on 
the environment because decreases in Federal protection of the 
environment will be more than made up by the States. I got news 
for you. To the best of my knowledge, not the case. States are 
asking for more support because of the serious budget cuts they 
face.
    Last Congress, GAO identified several States where cuts to 
the Federal environmental grant programs will result in 
reductions to State environmental staffing, cutting less 
critical programs and increasing State fees. The list goes on.
    In conclusion, if Members are planning to question this 
administration's commitment to addressing the environmental 
challenges facing our Nation, perhaps we first should look in 
the mirror and ask whether this Congress is meeting our 
commitment to the environmental--to our business, in terms of 
providing critical resources necessary for its protection for 
the sustained health of our populations and of our future 
economies.
    In short, I believe the answer is no. And I fear that we 
will soon see the consequences of a lack of physical foresight 
through continued crumbling water infrastructure, declining 
environmental quality, and, worse still, handing our children, 
our great-grandchild, and their progeny, a world of a less--on 
a less environmental sustainable path than we have inherited.
    So, thank you, Mr. Chairman, and I look forward to this 
hearing.
    Mr. Gibbs. Thank you. I also look forward to working with 
you in the full subcommittee on the implementation of WRRDA. We 
are going to have some hearings on that. And it is a very 
strong bipartisan bill. And we need to make sure that works 
forward.
    At this time, Mr. Kopocis, the floor is yours, and we 
welcome you.

       TESTIMONY OF KENNETH J. KOPOCIS, DEPUTY ASSISTANT 
 ADMINISTRATOR, OFFICE OF WATER, U.S. ENVIRONMENTAL PROTECTION 
  AGENCY, AND HON. MATHY STANISLAUS, ASSISTANT ADMINISTRATOR, 
      OFFICE OF SOLID WASTE AND EMERGENCY RESPONSE, U.S. 
                ENVIRONMENTAL PROTECTION AGENCY

    Mr. Kopocis. Thank you. And good morning, Chairman Gibbs 
and Ranking Member Napolitano, and all the members of the 
subcommittee.
    As the chairman said, my name is Ken Kopocis, and I am 
currently serving as the Deputy Assistant Administrator in 
EPA's Office of Water. Thank you for the opportunity to be here 
today to discuss the President's 2016 budget request for EPA's 
National Water Program.
    The President's budget request reflects EPA's longstanding 
efforts to protect the Nation's water, both at the tap and in 
the environment, and to identify new approaches and 
partnerships to make and sustain improvements in public health 
and the environment. The requested level of $3.7 billion allows 
the National Water Program to continue to support communities, 
improve infrastructure, drive innovation, spur technology, 
increase sustainability, and strengthen partnerships, in 
particular, with our States, tribes, and local governments. In 
fact, 78 percent of our budget request transfers directly to 
States and tribes.
    A significant way that we do this is through the Clean 
Water and Drinking Water State Revolving Funds. These funds 
provide critical support to States to improve their water and 
wastewater drinking--and drinking water infrastructure, and to 
reduce water pollution and public health threats. The fiscal 
year 2016 request is for a total of $2.3 billion for the two 
SRFs, $1.116 billion for clean water, and $1.1186 billion for 
the Drinking Water SRF.
    Additionally, in fiscal year 2016 we have included $50 
million to enhance the capacity of communities and States to 
plan and finance drinking water and wastewater infrastructure 
improvements. We will work with States and communities to 
promote innovative practices that advance water system and 
community resiliency and sustainability. We want to build 
technical, managerial, and financial capabilities of systems to 
promote a healthy and effective network of infrastructure 
investments.
    The Water Infrastructure Finance and Innovation Act of 
2014, which this committee, of course, gave us in the Water 
Resources Reform and Development Act of 2014, authorizes an 
innovative financing mechanism for water-related infrastructure 
of national or regional significance, and authorizes us, for 
the first time, to provide direct Federal credit assistance to 
eligible entities. Our fiscal year 2016 budget includes a 
request of $5 million to lay the groundwork to initiate that 
program, in addition to the existing State Revolving Fund 
programs WIFIA would provide yet another source of capital to 
communities to meet their water infrastructure needs.
    In January of this year the agency announced a key 
component of the administration's Build America initiative: the 
Water Infrastructure and Resiliency Financing Center, which we 
just call the financing center. Build America is a 
governmentwide effort to increase infrastructure investment and 
promote economic growth by creating opportunities for State and 
local governments and the private sector to collaborate on 
infrastructure development.
    The finance center at EPA will help communities across the 
country plan for future investments in infrastructure, assist 
in identifying financing opportunities for resilient drinking 
water, wastewater, and stormwater. The center will enhance our 
partnership and collaboration with the U.S. Department of 
Agriculture on training, technical assistance, and funding, 
particularly in rural areas. And we are also collaborating with 
our colleagues at the Departments of Treasury, Housing and 
Urban Development, and Commerce.
    Protecting the Nation's waters remains a top priority for 
the EPA. We will continue to build upon decades of effort to 
ensure our waterways are clean, and our drinking water is safe. 
Water pollution endangers wildlife, compromises the safety and 
reliability of our drinking water sources and our treatment 
plants, and threatens the waters where we swim and fish.
    Beginning later in this year, and into fiscal year 2016, we 
will begin implementation of the Clean Water Rule, which will 
clarify types of waters covered by the Clean Water Act, and 
will foster more certain and efficient decisions to protect the 
Nation's waters. And I expect that we may have an opportunity 
to discuss that more later today.
    Supporting our State and tribal partners, the primary 
implementers of our environmental programs, remains a priority. 
The overall proposed funding levels for tribes has increased by 
8.8 percent over the fiscal year 2015 enacted levels, and we 
are requesting at least $50 million be made available through 
the SRF to support tribes.
    The President's request also includes increases to key 
categorical grants that are of significant importance to 
States, such as a $5.7 million increase to a total of $165 
million for the section 319 nonpoint source program, and an 
increase of $18.3 million to $249 million for our section 106 
pollution control grants that the States use to operate their 
programs.
    In addition, we are requesting over $370 million to 
continue our important regional programs around the country to 
complement our national programs.
    So, thank you, Chairman Gibbs, Ranking Member Napolitano, 
and members of the subcommittee, for the opportunity to be here 
today. The President's budget reflects EPA's continuing efforts 
to improve water quality and public health, in partnership with 
the States. And I look forward to continuing our work with the 
subcommittee to ensure clean and safe America for--water for 
all Americans where we live, work, and play. Thank you.
    Mr. Gibbs. Thank you.
    Mr. Stanislaus, the floor is yours, and welcome.
    Mr. Stanislaus. Thank you. Good morning, Chairman Gibbs, 
Ranking Member Napolitano, and members of the subcommittee. I 
am Mathy Stanislaus, U.S. EPA Assistant Administrator for the 
Office of Solid Waste and Emergency Response. And thank you for 
the opportunity to discuss the President's fiscal year 2016 
budget for EPA's land cleanup and prevention programs under the 
subcommittee's jurisdiction.
    EPA's land cleanup programs regularly work with communities 
across America, cleaning up Superfund sites, responding to 
emergencies, and assisting tribes, States, and local 
governments in cleaning up and redeveloping Brownfields 
properties in hundreds of thousands of communities across the 
country, covering 541,000 sites, and almost 23 million acres.
    Our program makes a difference by protecting local 
communities through the cleanup of contaminated sites, and by 
responding to hazardous spills and releases; by supporting 
State and local emergency planners and responders to prepare 
for spills, releases, and other hazardous incidents; providing 
grants and tools to local communities to generate economic 
opportunity and job creation; by supporting the development and 
beneficial reuse of formerly contaminated properties, 
particularly in underserved and economically distressed 
communities; and helping to support new job-generating 
manufacturing investments in an environmentally responsible 
way.
    The President's fiscal year 2016 budget proposes a nearly 
$36 million increase for Brownfields programs from the fiscal 
year 2015-enacted levels. EPA's Brownfields program will use 
this funding to successfully leverage economic investments. And 
the Brownfields sites are located in downtowns of America, 
often the economic engines for communities. And we believe the 
best place for future economic redevelopment--to take advantage 
of the existing assets, existing infrastructure, and to 
maximize the markets that surround these properties.
    On average, EPA's grant programs leverage $18 of every $1 
that EPA puts into a grant by leveraging private and public 
funding. In addition, more than seven jobs are leveraged for 
every $100,000 in grants. EPA has found that residential 
property values increase 5 to 12 percent, once a nearby 
Brownfields property is assessed and cleaned up.
    In fiscal year 2014, the Brownfields program was only able 
to fund 266 of the 823 grant applications, which represents 
only 30 percent of the grant requests. We believe this 
increment will enable EPA to fund an additional 140 
communities, with each of these dollars leveraging, again, $18 
of additional investment, along with the alignment of other 
Federal and State resources.
    Superfund sites are located in more than 1,000 communities 
across the country. Approximately 49 million people live within 
3 miles of a proposed final listed Superfund site. Residents in 
communities located near Superfund sites are economically 
distressed from the loss of economic activity at the Superfund 
sites, as well as the public health consequence. EPA's budget 
request to the Superfund program represents a $65 million 
increase from the fiscal year 2015 enacted levels.
    Our study shows that early intervention at Superfund sites 
avoids disease, including reduction of child blood lead levels. 
Recent studies show that the incidents of birth defects do, in 
fact, go down by early intervention in the cleanup of Superfund 
sites.
    Superfund sites also create job opportunities. A recent 
study of 450 Superfund sites shows that cleanup and 
redevelopment has resulted in over 3,500 businesses located on 
these sites generating annual sales of about $31 billion, and 
employing more than 89,000 people who are earning a combined 
income of $6 million.
    The $43.7 million in Superfund increase and Superfund 
remedial program will enable us to deal with the backlog of 
Superfund sites, enabling these communities to receive the 
similar kinds of benefits. And we project up to 10 communities, 
additional communities, will be funded by this increase in 
resources.
    Lastly, EPA's oil spill program. We are requesting a $4.1 
million increase for the oil spill program to help EPA work 
with State and local responders to expand its prevention and 
preparedness activities. There are approximately 20,000 oil 
spills reported every year, and EPA evaluates 13,000 spills. 
These spills have a tremendous impact on local economies, on 
local waterways, on drinking water. Every investment in 
prevention is an avoided damage to local communities.
    With that, I will look forward to your questions. Thank 
you.
    Mr. Gibbs. Thank you. I will start the first round of 
questions.
    Mr. Kopocis, on the proposed rule, I noticed Administrator 
McCarthy was talking to a farm group earlier this week. I think 
she--I will paraphrase--said that maybe they weren't 
acknowledging the issue as well, or a better perception, and 
she doesn't want to call it--I noticed in your testimony you 
call it the Clean Water Rule.
    This is an easy question, it is either yes or no. I know 
with all the 34 States writing comments in opposition to the 
rule, and all kinds of entities, from farm groups to 
contractors to real estate developers all across the board--
just a simple yes or no--has the EPA recently either hired, 
consulted, or contracted with an outside public relations firm?
    Mr. Kopocis. No. No, we have not.
    Mr. Gibbs. OK. Also I want to follow on here. When the 
Clean Water Act was passed, my vision of the intent was a 
partnership with the Feds and the States. I want to hear what 
your take would be if this rule is implemented, because we had, 
like I said, 34 States that are in opposition that filed 
comments. What do you see the role of State EPAs when this new 
rule is implemented? I see it as such a power grab from the 
U.S. EPA from the States. But what do you see the 
responsibility and the roles of the State EPAs? And how do you 
think the State EPAs have been functioning since the creation 
of their entities and the Clean Water Act in 1972?
    Mr. Kopocis. Well, thank you, Chairman Gibbs. I think there 
is no doubt in anybody's mind that the effectiveness of the 
States in implementing the Clean Water Act----
    Mr. Gibbs. Can you pull your mic just a little closer?
    Mr. Kopocis. I am sorry. I think there has been no doubt in 
anybody's mind that the effectiveness of the States in 
implementing their role under the Federal Clean Water Act has 
been outstanding. The States implement the NPDES permit program 
in 46 of the 50 States. They have taken on that responsibility.
    Plus, the statute itself folds in many responsibilities for 
the States, directly. Water quality standards are set by the 
States to meet the uses that the States themselves set. Plus, 
the States have a vital role under their authority under 
section 401 to do water quality standard certifications that 
apply to all Federal permits that may be granted, whether they 
are EPA or any Federal permit or license that is out there.
    So, States have done a remarkable job of assuming their 
responsibilities. And, in fact, as the--the Environmental 
Council of the States is meeting in Washington this week, and I 
spent part of the last 2 days with them, and acknowledged as 
much, and told them if they chose to give the program back to 
us, we simply couldn't do it. We would be way too short on 
manpower and expertise. And that is one of the reasons that, in 
today's budget request, I describe that we are increasing the 
amount of money for section 106 grants, which the States use to 
implement their programs, and providing more resources for 
their 319 program, which they use to address nonpoint source 
programs.
    Mr. Gibbs. You know, I think you mentioned everything else 
they are doing, but how does it affect what-- rule 
implemented----
    Mr. Kopocis. In terms of the rule, we have had extensive 
discussions with the States. We did hear, when the rule was 
first published in March, that the States wished that we had 
had more conversations. We did consult with them in advance of 
the rule, going out. And their response was, ``We wish you had 
done more.''
    So, in response to that, we set up a special process for 
the States during the public comment period. We engaged with 
ECOS, the group I just mentioned; ACWA, the Association of 
Clean Water Administrators, the people that work the programs 
on the ground; and the Association of State Wetland Managers. 
We asked each of those groups to produce five representative 
States of their choosing to meet with us on a regular basis to 
go over the rule and how it might possibly intersect with the 
State programs. The States agreed among themselves, the three 
groups, five each. They picked 15 different States, so we got a 
really----
    Mr. Gibbs. Were these 15 States part of the 34?
    Mr. Kopocis. Yes. There were some.
    Mr. Gibbs. OK.
    Mr. Kopocis. And so, we sat down with them. We said we 
would schedule whatever meetings they wanted. We ended up 
scheduling four separate meetings of about 2 hours each. And I 
can say with some sense of satisfaction that the--at the last 
meeting, which was scheduled for 2 hours, it was a little over 
an hour, and that meeting ended because, quite frankly, the 
States have run out of things they wanted to talk with us 
about.
    Since the comment period closed, we have reengaged with 
that same group of States to talk to them about possible 
changes that we would make in the rule. We also committed to 
them--I committed to them as recently as yesterday that, once 
the rule goes final, that we want--or, actually, before the 
rule goes final, we want to work with them, so that we can get 
the rule in the right place, as it goes out to the----
    Mr. Gibbs. Let me----
    Mr. Kopocis [continuing]. Transition period----
    Mr. Gibbs [continuing]. Follow up on that part of it, 
because in our joint hearing with the Senate, I asked 
Administrator McCarthy--because there is a lot of things that 
came up in that hearing they said they were going to fix in the 
final rule. And I asked, ``Are you going to put out a 
supplemental or something that Members of Congress and the 
public can see before you issue the final rule?'' and she said 
no, they weren't, it wasn't necessary.
    Are you anticipating a lot of significant changes before 
the final rule comes out, and then you are not going to share 
with us, or the public?
    Mr. Kopocis. Well, we are anticipating going final with a 
rule this spring. We are not anticipating another round of 
public comment. We do believe that we can make some changes to 
the rule, based on the many comments that we received, either 
in the 400-plus public meetings that we held, both in DC and 
around the country--most of which were outside of the DC area--
and the 1 million public comments that we received.
    Mr. Gibbs. I am--my time has expired, but I just want to 
ask one quick question on the--just keep going?
    [Laughter.]
    Mr. Gibbs. I have to be fair to my other Members. On the 
comments, my understanding, 1 million or so that is--that have 
comments, and the EPA is saying there is about 19,000 that are 
substantive. Of the substantive ones, do you know what the 
ratio breakdown is between pro and con?
    Mr. Kopocis. Well, actually, sir, I think a better way to 
characterize that subset of comments is we characterize them as 
unique comments, in that they are a comment that is not part of 
a mass-mail campaign, or something like that.
    And, obviously, in the overall number of comments, there 
are a significant number of mass-mailers, both pro and against 
the rule. But we characterize them as unique comments, in that 
they are not part of an organized effort.
    Mr. Gibbs. Yes, well, the unique comments----
    Mr. Kopocis. They may or may not----
    Mr. Gibbs. What do you see in the unique comments, pro and 
con, what the ratios are?
    Mr. Kopocis. Well, and in those, though, they may or may 
not actually offer substantive comments on the rule. They may 
simply offer views without going into great detail as how they 
want the rule to be changed.
    Mr. Gibbs. Does the EPA also have a contractor working with 
you on this, on deciphering and analyzing the comments?
    Mr. Kopocis. Yes, sir. We do have contract----
    Mr. Gibbs. What is the contractor's opinion of what the 
ratios are, pro or against? What is the flavor, what is the 
trend?
    Mr. Kopocis. OK. The contractor works to help process the 
comments, separate those that are mass-mailers from those that 
are characterized as unique, to help us understand what are the 
topics, and which ones--you know, we don't have to read 100,000 
of the identical postcards.
    Mr. Gibbs. Yes.
    Mr. Kopocis. But, in terms of the numbers of how those 
break down, I don't have those. I could get those for you.
    Mr. Gibbs. So you are moving--so the EPA is moving forward 
with the final rule, and you don't know if the comments--are 
you taking the comments serious, if you don't know----
    Mr. Kopocis. We are taking the comments extremely 
seriously, sir. Both agencies, us and the Army Corps of 
Engineers have devoted significant resources. Both agencies 
have brought in personnel from their field offices. We brought 
in people from the regions. The Army Corps brought in people 
form their district offices to process the comments. We're 
taking them extremely seriously.
    Mr. Gibbs. But I think with 34 States, and I know 22 of 
those States, and a comment specifically said ``Stop the 
implementation of this rule; let's start over.'' That would be 
significant comments, and you're moving forward with the rule. 
I don't know--if you are, if your actions here--if you are 
taking them serious. If you have a quarter of the States say 
``drop this,'' the 24 or whatever it was--well, that's half the 
States, isn't it? So that makes me, you know, if you are really 
paying attention to those comments.
    So I'm going to--we're going to have several rounds of 
questions here today, so I want to turn it over to my ranking 
member for any questions she may have. Thank you.
    Mrs. Napolitano. Thank you, sir. And it would be 
interesting to find out whether those comments came from 
cities, from counties, from States, and whether or not--I'm 
sure that was not part of the mass-mailing, but what were their 
major concerns on those comments on those periods? And that 
would be something I'd like to maybe have reported back to this 
subcommittee, sir.
    Mr. Kopocis. Surely.
    Mrs. Napolitano. Administrator Kopocis, $13 million 
included in the President's budget to assist communities 
develop integrated plans through the direct Technical 
Assistance Competitive Grants, in my area, Lake County, cities 
and agencies have been working extensively to comply with the 
new stormwater permit. If the $13 million request is funded, 
how could the agency--how would the agency utilize this new 
funding to assist them in pursuing an integrated approach to 
permitting, and along with that, you have five communities that 
received similar technical assistance. I'd like to know where 
they were, what type of cities they were: urban, suburban, ag, 
and an update on those efforts as to whether we are able to 
learn from those in our areas
    Mr. Kopocis. Thank you very much for that question. Yes 
indeed, as you know, the agency is a very strong supporter of 
our integrated planning framework. We have been devoting 
considerable time and resources to that effort, and we have 
been getting really positive responses from communities across 
the country. The fiscal year 2016 request for $13 million would 
allow us to provide significant resources to work with at least 
13 communities, to help them develop integrated plans, so that 
they can best meet their water--stormwater needs in the best 
way possible.
    We want to help communities understand, ``if I only have 
one dollar to spend, where do I spend it? Where do I spend my 
second dollar, my third dollar?'', and make sure that those 
priorities are being recognized in how they meet the needs of 
complying with both the Clean Water and the Safe Drinking Water 
programs.
    Mrs. Napolitano. My understanding is you do--you are 
working with the Conference of Mayors.
    Mr. Kopocis. We are working extensively with the Conference 
of Mayors. In fact, we recently completed an effort where we 
worked with them over the course of several months to 
specifically address affordability issues, which of course is 
at the very heart of the integrated plan.
    Mrs. Napolitano. And funded mandate, sir.
    Mr. Kopocis. Yes sir. Yes, ma'am. So we are working very, 
very hard with them to make sure that we have a system that 
works in the communities, that allows them to meet their 
responsibilities for clean water, to their citizens and to the 
environment, but at the same time does not impose an undue 
strain on either the city's budget, the community's budget, or 
the household budget.
    Mrs. Napolitano. Thank you, sir. Have there been specific 
problems in the implementation of the pesticide general 
permitting, and has it had any significant adverse impact on 
pest control operators or agricultural operators? Have they 
been reported to you, the number, the severity, is it 
increasing, is it diminishing? Can you report on that?
    Mr. Kopocis. Thank you again for that question. I can say 
that we have not been made aware of any issues associated with 
the pesticide general permit. Nobody has brought an instance to 
our attention where somebody was not able to apply a pesticide 
in a timely manner including, because our ruling allows for 
post-application notification, there have been no instances. 
We've been getting very good data, and I can actually proudly 
say that that is one area for EPA where we have no active 
litigation, either for us or against us, on the pesticide 
general permit.
    Mrs. Napolitano. Thank you, and--that's interesting.
    On the Superfund and Brownfields backlog, we're happy to 
see the support for the reinstitution of the Superfund taxes in 
the budget. Excise taxes imposed on domestic crude oil and 
petroleum products through January 1996 and then they stopped. 
They're used to treat damages caused by release of hazardous 
substances. Do you have any idea, or can you report to the 
subcommittee the number--the quantity of the backlog of pending 
Superfund projects versus the available funding, and along with 
that, if the tax is not reinstated, do you have adequate 
funding to address that Superfund backlog, and for the 
Brownfields program?
    Mr. Stanislaus. I'll take that.
    Mrs. Napolitano. I'm sorry. Mr. Stanislaus?
    Mr. Stanislaus. Yes, so we have a backlog of a little over 
30 sites and communities--30-plus communities across the 
country. While some of the increase would address some of that, 
a handful, up to possibly 10, we project, at least 3, maybe up 
to 10, even with that----
    Mrs. Napolitano. Would you identify those for the 
subcommittee, so that we know where they're at?
    Mr. Stanislaus. Sure.
    Mrs. Napolitano. At least have an idea if any of them are 
in our areas?
    Mr. Stanislaus. Sure.
    Mrs. Napolitano. Thank you. Go ahead, and you can finish.
    Mr. Stanislaus. I thought I answered the question.
    Mrs. Napolitano. Does the number--and the amount in 
dollars?
    Mr. Stanislaus. In terms of the total dollars for the 
sites?
    Mrs. Napolitano. The cleanups, right.
    Mr. Stanislaus. I don't have that available in front of me.
    Mrs. Napolitano. Would you mind looking it up, or having 
somebody report to us----
    Mr. Stanislaus. Sure.
    Mrs. Napolitano [continuing]. Because that goes into the 
``how do we deal with the budget issues'' as the need.
    Mr. Stanislaus. OK.
    Mrs. Napolitano. Thank you. The required review of Clean 
Water State Revolving Fund allotments to the States: In section 
505 of WRRDA, you were asked to complete a review of the 
allotment of funds to the States under this revolving fund by 
December. Can you tell us what the update on that is?
    Mr. Kopocis. We are on track to meet that deadline. We have 
been working with the States to see how to best fulfill that 
responsibility that was given to us in the--in the Water 
Resources Reform Development Act, but we are on track. We are 
looking to make sure that we can use the most current data 
available. The 2012 needs survey is currently at OMB for 
review, so it is not yet public, but we of course know what's 
in it, and we're working to make sure that--to see that we can 
incorporate that as well.
    Mrs. Napolitano. Would it be possible to identify for us 
the--whether this includes tribal and territories?
    Mr. Stanislaus. I'll----
    Mrs. Napolitano. The State Revolving Fund?
    Mr. Kopocis. Yeah. The needs survey that's in the Clean 
Water Act today, it applies to the States, but it also applies 
to the territories and possessions and the District of 
Columbia. So there is the set-aside in the SRF that is 
implemented now for tribes was something that was put in--
requested by prior administrations and has been carried forward 
through the appropriations process. So it's not in the 
allotment formula itself. But I will take that back to the team 
and talk to them about how it is that we might incorporate 
tribes, and of course we would want to talk with you all, as 
authors of the provision and the States as well.
    Mrs. Napolitano. Very appreciated, and tell it to the 
subcommittee, please.
    The last question I have, Mr. Kopocis, is the EPA quarters 
in region 9 are jointly developing a National Drought 
Resiliency partnership in southern California--the first time 
I've heard of it. I'd like to--it sounds like a great 
opportunity to improve the work that southern California is 
doing on rain capture, on stormwater regs, and recycling, 
improving water efficiency, and of course conservation. Would 
you provide a very short summary of what the pilot project is 
and how others could benefit from this?
    Mr. Kopocis. I will have to get back to you on that. I can 
say generally that we are trying our best to support the 
efforts in any of the areas that have suffered from drought. 
It's an administrationwide effort, but in particular what EPA 
can do, and that is to encourage water reuse and recycling and 
conservation.
    Mrs. Napolitano. Well, we're looking at a continuing 
drought cycle in the West, and certainly we need to look at 
every single item that we can. And may I hope that you get your 
appointment some day soon as Assistant Administrator, sir.
    Thank you, Mr. Chair.
    Mr. Kopocis. Thank you.
    Mr. Gibbs. OK, I just want to let Members know, I know the 
chairman and the ranking member went over our time, but we're 
going to try to hold close to the time, because we're going to 
do more than one round, so----
    Mrs. Napolitano. Are they going to----
    Mr. Gibbs. Well, we're going to do more than one round. I 
just wanted to make you aware of, so there's a chance then 
we'll have at least two rounds, or maybe more. We're going to 
be here for awhile.
    I recognize now the gentleman from Arkansas, Mr. Crawford, 
for 5 minutes.
    Mr. Crawford. Thank you, Mr. Chairman, Mr. Stanislaus. 
Gentlemen, first let me thank you for being here. Mr. 
Stanislaus, as you know, the Water Resources Reform and 
Development Act was signed into law last year, thanks to the 
hard work of many of the members of this subcommittee. It 
didn't require much of the EPA, but section 1049 directed EPA 
to revise the exemption on farmers under the Spill Prevention, 
Control, and Countermeasure regulations. Specifically, it 
exempted farms that have an aggregate aboveground oil storage 
capacity of 6,000 gallons or less. Now, it's been 8 months 
since the legislation was signed into law, and yet there is no 
indication from EPA of their intent to exempt farms below this 
capacity.
    For example, when you look on the EPA Web site, it directs 
compliance for the same exemption level that was required in 
2013. My question is: why hasn't EPA let farmers know about the 
exemption level change?
    Mr. Stanislaus. With respect to WRRDA, EPA has in fact 
moved forward on conducting a study of the risk of oil spills 
and discharges from farms to waters per the direction of 
Congress, and per the direction of Congress, once a study is 
completed, we would move forward on potential adjustments to 
the thresholds. Parallel to that effort, our regional offices--
we're doing an extensive outreach to the ag community and we're 
open to doing more in terms of the spill prevention 
requirements, and we also----
    Mr. Crawford. So just a sec--the law was--it was signed 
into law 8 months ago.
    Mr. Stanislaus. Yes.
    Mr. Crawford. Now I know that there was a--also there was a 
requirement for EPA to conduct a study in consultation with 
USDA regarding the appropriate exemption levels; that allowed 
for 1 year. We're coming up on 1 year. We're actually 8 months 
into that. But that didn't mean--that didn't mean that you 
ignore the fact that the 6,000-gallon threshold was signed into 
law. So my question is, now you're still giving the impression 
to farmers that they have to comply at 1,320 gallons when that 
in fact is not the case. Can you update your Web site to let 
them know that 6,000 gallons is the threshold?
    Mr. Stanislaus. Sure. I mean, we've been doing outreach, 
and I'll have my folks take a look at the Web site.
    Mr. Crawford. OK, that would be much appreciated, because I 
don't think the outreach is working at this point. I think 
they're going to your Web site and seeing that that's somewhat 
of a problem.
    Let me ask you this real quick. Are you familiar with 
Executive Order 13690? Specifically addressing Federal flood 
risk management standard?
    Mr. Stanislaus. I can't say I'm intimately familiar with 
that.
    Mr. Crawford. I'm familiar with it, and what that does 
basically is it has the effect of decertifying every levee in 
the United States. Eight hundred eighty-one counties affected. 
Let me give you some details here. It changes the minimum flood 
elevation to be calculated by ``best available science'' for 
climate change, but no one really knows what that means. It 
enforces flood plain management standards, meaning ``all 
structures must be built above flood elevation, not counting 
the levee protection.'' Can you explain how that is going to--
how much that is going to cost? And what the effects are going 
to be in those--in those protected areas?
    Mr. Stanislaus. Yes, actually, I'm not sure that's within 
my jurisdiction, I'll turn to Ken----
    Mr. Kopocis. Yeah, I--that's not really within our agency's 
scope of responsibility. As--we are affected by that Executive 
order, but in terms of levee certification, that would be more 
the U.S. Army Corps of Engineers.
    Mr. Crawford. Right, but in the context of waters of the 
U.S., does this not bring you into that loop?
    Mr. Kopocis. Oh, I'm sorry. In terms of the Clean Water 
Rule? The scope of the Clean Water Rule is not affected by the 
certification of a levee or not. The current rule allows for 
the assertion of jurisdiction over waters under the concept of 
adjacent waters, regardless of whether they're separated by a 
berm, a levee, or some other structure. So they're evaluated as 
if the manmade structure did not exist.
    So that's the current rule, and the proposed rule would 
carry forward with that same concept.
    Mr. Crawford. Well, I think what we're going to see here 
with this Executive order is it's going to have overwhelming 
costs and ultimately the taxpayer is going to pay the burden. I 
hope that you all will familiarize yourself with that Executive 
order, because I'm sure we're going to have the opportunity to 
address that, and I feel confident that the EPA will certainly 
have some oversight in terms of enforcement and authority on 
that, as--as WOTUS sort of unwinds with this rule that we hope 
does not go forward, but with that, Mr. Chairman, I yield back.
    Mr. Gibbs. Ms. Johnson.
    Ms. Johnson. Thank you very much, Mr. Chairman. And let me 
thank our distinguished witnesses for--from the Environmental 
Protection Agency.
    I had the privilege yesterday, in my role as the ranking 
member of the Committee on Science, Space, and Technology, to 
discuss the important work that your agency is doing to keep 
our air clean and our water safe, and the health and well-being 
of all Americans at the forefront of the national priorities.
    In my time here in Congress, I've served as both the 
ranking member and chairwoman of this committee's Subcommittee 
on Water Resources and Environment. And during my tenure we 
worked together and enacted into law, alongside President Bush 
at the time, the Brownfields Revitalization Act. At the time 
there were over 500,000 such Brownfields sites nationwide. And 
these are abandoned of course; underused sites that represent a 
blight to neighborhoods, pose health and safety threats to our 
communities and create a drain on economic prosperity.
    The city of Dallas, which I represent, was one of the first 
cities designated as a Brownfields showcase community, and over 
35 sites were selected and subsequently redeveloped within the 
city's jurisdiction. Barely $2 million jumpstarted that 
initiative in Dallas, and over $370 million in private 
investment was leveraged to create nearly 3,000 permanent full-
time jobs. We built over 1,600 units of housing on these 
sites--I live in one of them--and brought about a wave of 
sustained vitality of the city's core. And Mr. Stanislaus, we 
know that you have just outlined a number of things 
accomplished and also the benefits of what we have to gain by 
it, and I want to thank you.
    It's clear that Brownfields cleanup and redevelopment are 
very important to our community and to our economy, and I hope 
that we can agree to continue to meet the President's budget 
request for this vital program.
    On a separate note, I want to briefly weigh in on the 
comments made regarding the Clean Water Rule proposed by the 
EPA. Early this year, EPA Administrator McCarthy came before a 
joint House and Senate committee on this matter, and I said 
then, and I'll say again that the science behind the rulemaking 
is sound. The EPA Office of Research and Development's report 
on the connectivity of streams and wetlands to downstream 
waters clearly states that the scientific literature 
unequivocally demonstrates that streams, regardless of their 
size, or frequency of flow, are connected to downstream waters 
and strongly influence their functions.
    The science is clear; the evidence is there, and I hope 
that we can lay to bed the question of whether or not the 
science of water connectivity downstream is based on evidence-
based science. I think it is, and I think it is sound science. 
At the root of this debate is the issue of clean water, and I 
firmly believe that access and preservation to the vital 
resource is of the utmost importance to our community. I've 
never met an American who did not want clean water.
    And so my question to both of you is, how extensive have 
the EPA efforts been to make sure to accommodate the concerns 
of various stakeholders, including our farmers, in the 
formulation of the Clean Water Rule?
    Mr. Kopocis. Thank you, Ms. Johnson. Our outreach to 
stakeholders has been unprecedented for the Office of Water and 
the Clean Water Rule. As I said, this rule was signed on March 
25th. It was posted on our Web site that day. It was posted in 
the Federal Register on April 21, which began the actual period 
for public comment. We extended the public comment period 
twice, for a total of 207 days, to November 14th. We received 
in excess of 1 million comments.
    But perhaps even more importantly, during those 207 days, 
our agency held over 400 meetings, either in person--most were 
in person--or on webinars or teleconferences, where we engaged 
with every stakeholder group that we reached out to, or that 
reached out to us. We do not believe that there is a single 
stakeholder group that was not afforded the opportunity to have 
a dialogue with us, and many of those stakeholder groups had 
multiple dialogues. Both multiple times in Washington, but also 
because we held meetings in all 10 of our EPA regions, there 
were multiple opportunities for stakeholders to participate--to 
participate in the dialogue and bring their own regional 
perspective to the discussion. So that's the amount of 
stakeholder involvement that we've had, and we are continuing 
to have, stakeholder involvement as I said--not only have we 
talked with the States since the rule period closed, I have 
personally talked with Members of Congress, and I've talked to 
several stakeholder groups as well.
    Ms. Johnson. Thank you very much, my time has expired.
    Mr. Gibbs. Mr. Webster. You're recognized for 5 minutes.
    Mr. Webster. Thank you, Mr. Chair. Thank you for having 
this meeting. My question would be to Mr. Kopocis.
    I'm from Florida; we have a lot of water. I'm from central 
Florida. We've got thousands of lakes. One of the counties I 
represent, or the three counties I represent is called Lake 
County, because it's full of lakes; has a big large chain of 
lakes called the Harris chain, just south--just south of my 
district office in Orange County, there's another large chain 
of lakes called the Butler chain, and then there's thousands of 
other lakes, and they're all connected by channels or canals, 
or rivers, small rivers, so I guess my question is can you 
identify the full range of land and home improvements projects 
that would be subject to the Clean Water Act under the proposed 
definition of U.S. waters?
    Mr. Kopocis. Thank you again for the question, and I cannot 
specify in particular circumstances in your county, but I can 
talk about the circumstances that I think you are raising in 
terms of the existing rule and the proposed rule, and that is 
how our water's connected with each other, and what role, in 
particular, do subsurface waters play in connecting waters. And 
today----
    Mr. Webster. By the way, most of our waters are close to--I 
mean, you do not have to dig very deep in Florida. We're 
basically a wetland.
    Mr. Kopocis. Yes, sir.
    Mr. Webster. So we're connected.
    Mr. Kopocis. So, but I think that, I mean, even today, 
under today's rule and guidance documents that exists, the 
agencies do look at whether waters are connected through 
subsurface connections to determine whether there is an effect 
between a water body and a downstream traditional navigable 
water. We think that one of the things that we heard throughout 
this proposal process was are we doing that correctly today; 
how does the science support that; and how should we look at it 
going forward.
    This concept shows up in evaluating which waters are 
considered adjacent for purposes of jurisdiction. And adjacent, 
of course, requires that there be some other traditional 
navigable water, or the territorial seas to be adjacent to. And 
so it's not just a matter of taking a water body and drawing a 
chain from water body to water body to water body to water 
body. So because the farther out that you get, the more the 
connection to the downstream water becomes, in Justice 
Kennedy's word, speculative or insubstantial.
    And so we received a lot of comments on this. This is one 
of the areas where the agency is looking at those comments very 
carefully to try to understand are there ways to be more 
transparent and more open about how waters are connected with 
each other, and what lines do you draw where you say while you 
may be able to draw a connection--because as in your instance 
in Florida where water body to water body to water body--at 
some point it becomes too disconnected and too speculative to 
comply with the tests the court gave us, or to be supported by 
the science that our Office of Research and Development 
developed.
    Mr. Webster. Do you know if you considered the tax basis of 
counties? Let's say this slows growth, it slows construction. 
One of the three legs of our economic stool is construction--
the other is agriculture and the other is tourism--and if 
there's not a specific list of things that you can or cannot do 
in certain areas--and I hope that's forthcoming, if it is, I'd 
like to have it--then even the ad valorem taxes are going to--
and we do not have an income tax in Florida, we're a great 
State to live in, but we do depend on ad valorem taxes for our 
schools and our county governments, and city governments. And 
do you know if any of that was considered when you did, like, 
the economic impact of what might be done by this rule?
    Mr. Kopocis. Well, that aspect is not part of our economic 
analysis, I can tell you that. But I do want to make sure that 
there's a mutual understanding that, of course the Clean Water 
Act does not apply to an activity unless that activity involves 
the pollution of water or the filling of a water.
    So if you are in an area and you're looking to develop, and 
there is no intent to either pollute or discharge and fill a 
water body, then the Clean Water Act simply does not apply. And 
even where those activities occur, there are ways to get 
permits. The Corps issues tens of thousands of permits to fill 
waters of the U.S. today, and we do not anticipate that that 
will change under the proposed Clean Water Rule, and also there 
are tens of thousands of permits that are issued every day--I 
should not say every day--tens of thousands of permits that 
exist that allow for discharges of pollutants through the 402 
NPDES program, which Florida administers.
    So I think that--I want to make sure that people understand 
what the Clean Water Act is about is controlling pollution or 
deposition of fill material into waters, but it is not operated 
as an absolute prohibition because we have thousands of permits 
in existence to do those very activities today.
    Mr. Webster. Thank you very much.
    Mr. Gibbs. Ms. Norton, you're recognized for 5 minutes.
    Ms. Norton. Thank you very much. The water system in the 
United States is inevitably going to be, no matter what you do, 
is going to be a source of controversy given the multiple 
waters that are involved. Before I go further, though, I'd like 
to say that I was pleased to see the President's slight 
increase $3 million for the Chesapeake Bay. If ever there was 
an indication that this--one of the great wonders, it touches 
seven or eight States--needs our Federal support, it's the 
presence of intersex fish in the Chesapeake Bay.
    I also want to indicate my strong support for your work on 
Brownfields, that's really going to aid parts of our 
communities where expansion and redevelopment is absolutely 
dependent upon doing something about what can often be prime 
land. And we had such prime land here in the District of 
Columbia. At the southeast waterfront, the navy yard had 
contaminated that land; it was cleaned up and it's going to be 
a revenue-producing site here, and that is exactly what's going 
to happen as you continue your Brownfields work.
    Let me ask because this question about the waters of the 
U.S. keeps coming up and, I assure you, will keep up no matter 
what you do. Mr. Kopocis, the opponents have, of course, 
proposed yet a new proposal. In essence it would be another 
round of public comment and rulemaking. It would in essence 
start all over again, so I'm trying to see how we can get to 
the bottom of this, reach some conclusion.
    If you were to start all over again, actually it would not 
be the second time, it would be the third time because the 
agency has also looked at clarifying the Clean Water Act. The 
draft Clean Water Act of 2011, as I understand it, was never 
finalized so if we look at the number of years you've been at 
work, it's close to 4 years, and I must say a very impressive 
number of comments, 1 million comments, not to mention all 
the--the public comments, not to mention all of the 
stakeholders that you have had contact with.
    So I'm trying to see whether what we're looking at is 
another bite of the same apple, or just throwing the apple out 
if the opponents really just do not want the apple to be part 
of what you do because if it was not there, I'm not sure what 
you would do.
    So I have to ask you: what has been your consultation with 
the States and, for that matter, with the Congress, and what 
specifically would be gained by stopping you, blocking you as 
it were, from finalizing the current proposed rule and, in 
essence, saying, ``Start all over again''?
    How would you then proceed? What would be gained by that?
    Mr. Kopocis. Well, thank you, Ms. Norton, for that 
question. I think in summary what would be gained is there 
would be a delay in clarifying the jurisdiction of the Clean 
Water Act. A subject which people have been asking our agency 
to do is to clarify the jurisdiction of the Clean Water Act 
going as far back as when the Supreme Court case came out, the 
SWANCC case, in 2001, and then the more complicated case that 
came out in 2006, the Rapanos case.
    The agencies responded. As you correctly said, we responded 
with guidance in 2003 to respond to SWANCC. We responded with 
guidance in 2008. Those were both part of a public process, and 
then we proposed guidance again in 2011 which was never 
finalized, but was again part of a public process.
    And throughout this process what we have heard from all 
interested parties, regardless of whether they support the 
Clean Water Act or do not support the Clean Water Act, is that 
the agency should do a rulemaking, and we believe that it is 
our obligation to fulfill those requests and do this 
rulemaking.
    Further, issuing another rule for proposal would simply 
delay the ultimate resolution of the----
    Ms. Norton. Would it be redundant to what you have done?
    Mr. Kopocis. I cannot say that it would be. Well, what I 
would say is that I do not know what value would be added other 
than the addition of time. We have, as I said, done extensive 
conversations in person with over 400 meetings with the public, 
received their comments.
    Ms. Norton. Would that include the States and State 
representatives of States themselves who would be affected?
    Mr. Kopocis. We met with the States extensively. As I said, 
our last meeting with the States to discuss issues ended early 
because there was nothing left for us to discuss.
    We also engaged our Local Government Advisory Committee and 
held meetings around the country bringing in local government 
officials from cities and counties. We held meetings in St. 
Paul, Minnesota; Atlanta, Georgia; Takoma, Washington; and 
Worcester, Massachusetts. There we had representatives from 
Florida, Minnesota, Missouri, Maine, Wisconsin, Montana, 
Michigan, Texas, Utah, Idaho, New York, Arizona, and 
Washington.
    And so we worked with our communities. That is our Local 
Government Advisory Committee. They went out to these other 
cities. They brought in local officials from those regions to 
further discuss this rule, and we believe that we have received 
the input.
    Quite candidly, I will tell you there is not a lot of new 
in the way of issues that are being raised. Many of the issues 
that are being raised are the same ones that have been raised 
for several years.
    Ms. Norton. I just want to clarify and get your view on one 
question, lest people think that once your final rule comes 
out, they have lost all hope particularly here in the Congress 
of doing anything about it.
    Does Congress not have the authority under the 
Congressional Review Act and the appropriations process to 
continue to express its dissatisfaction any way it sees fit 
with whatever final rule you come forward with?
    Mr. Kopocis. Yes, clearly Congress has that authority.
    Ms. Norton. Thank you very much, Mr. Chairman.
    Mr. Gibbs. Mr. Davis.
    Mr. Davis. Thank you, Mr. Chairman.
    First off, if you would relay a message to Administrator 
McCarthy, telling her thank you for addressing an issue that I 
brought up during our joint hearing a few weeks ago regarding 
the Mahomet aquifer in central Illinois. I appreciate the 
prompt decision on the sole source designation. So thank you 
for your efforts there.
    I do have a question Mr. Kopocis. It is in regards to 
WOTUS. Will the proposed rule or has there been any discussion 
regarding the proposed rule for exemptions for water utilities?
    I am concerned that when water utilities are going to go 
fix a water main, you know, just to give an example, fix a main 
break, are they going to need to get a Federal permit or work 
through the State IEPA to do so?
    Mr. Kopocis. I am struggling to come up with a set of 
circumstances where they would. So I would say the answer is 
no, but, sir, I cannot think of an instance where they would 
need a permit under the Clean Water Act to repair that kind of 
a break.
    Mr. Davis. OK. Well, obviously this issue brings up many 
concerns to us, which is why you are here, why we have had so 
many different hearings on this issue.
    One other question to you, Mr. Kopocis. Can you explain why 
the EPA did not convene the Small Business Advocacy Review 
Panel in accordance with the requirements of the Small Business 
Regulatory Enforcement Fairness Act when developing this rule?
    Mr. Kopocis. Well, thank you for that question. We did as 
we do with all of our rules do an analysis of our 
responsibilities under the Regulatory Flexibility Act, and we 
made a determination that there would be no significant impact 
on a substantial number of small entities. That is the test 
that we are held to.
    We made that determination jointly with our coregulators at 
the Army Corps of Engineers, but we did not just take our word 
for it. We also consulted within the executive branch to 
determine whether our certification was correct. We reached out 
to the Office of Management and Budget, and we reached out to 
the Department of Justice to see if they agreed with our 
conclusion, and they did.
    I do understand that the Small Business Advocate has 
disagreed with that, but we have made our certification, and it 
is supported by others in the administration.
    Mr. Davis. I think you can understand there is a lot of 
concern from the stakeholders. As a matter of fact, a perfect 
example of what I think may not be effective outreach is when 
Administrator McCarthy apologized to farm groups for not 
consulting them on the interpretive rule that has now since 
been rescinded.
    I think this would have been a perfect opportunity to use 
the Science Advisory Board with the new agriculture member to 
have an agriculture focus, too.
    Lastly, I have had Deputy Administrator Perciasepe sit in 
that same chair not too long ago, asked him a question about 
whether or not this proposed rule would exempt individual 
septic systems that discharge aboveground because there is 
language in the proposed rule that says sewage treatment 
facilities are exempt from this rule. He said at that time that 
the EPA did not require permits for aboveground septic system 
discharge units, and frankly, I was surprised by that answer 
because I had the frequently asked questions from region 5 on 
how to get a permit in Illinois for these units.
    I asked the exact same question of Administrator McCarthy, 
and I did not get an answer then either. She actually said that 
was a trick question after Mr. Perciasepe said he was at a 
loss.
    Now, I still have yet to get a response from the EPA to 
that question. This is the third time I have asked this 
question about whether or not these units are going to be 
required to get a permit under the Clean Water Act, and this is 
the concern that we have, that people will come into rooms like 
this, they will answer questions and then walk away, wipe their 
hands off, and check the box that they came here and they took 
the questions.
    I am getting no followup from your agency on this issue. To 
me it is a simple question.
    Mr. Kopocis. Well, I will answer it in two ways. First, 
generally, if there is not a discharge from a pipe or some 
other discrete conveyance, there is no Clean Water Act permit 
required.
    I do not know the particular circumstances that form your 
question, but what I will tell you is that the second part of 
my answer is that you will get followup. I will make sure that 
my people in the Office of Water or myself personally will 
contact you or your staff. We will find out the circumstances 
that give cause to your question, and we will give you an 
answer.
    Mr. Davis. Well, I appreciate that. Again, this is the 
third time, and it was Administrator McCarthy the last time on 
this issue.
    So I am very concerned. I want to know if my constituents 
in rural areas are going to have to continue to get a permit 
under the Clean Water Act because the frequently asked 
questions specifically say they may be subject to a Clean Water 
Act citation if they don't do this.
    And you cannot say in the proposed rule that sewage systems 
are exempt without including them. I want to know the answer, 
and I appreciate your time. My time has expired, but thank you.
    Mr. Kopocis. I will absolutely do that, Mr. Davis. We will 
get back with you.
    Mr. Davis. One quick thing. If we do not get a response the 
next time, I am going to have the staff behind you stand up 
when I ask that question, and I am going to say they should be 
fired.
    Mr. Kopocis. I have some of my colleagues here. I may even 
have a couple of them watching this if it is being broadcast 
online. I can assure you you will get an answer.
    Mr. Davis. Thank you.
    Mr. Gibbs. Ms. Esty, 5 minutes.
    Ms. Esty. Thank you, Mr. Chairman.
    And I want to thank both of you for joining us here today.
    Mr. Stanislaus, in particular I would like to explore with 
you more about the Brownfields programs. I represent a part of 
Connecticut where these issues are very important. Currently we 
have all too many properties that are not productively engaged 
in the tax rules and contributing to local communities. So it 
is of great interest to us to understand how we can better get 
more properties being treated and back into productive play, 
hiring people, contributing towards economic growth.
    You noted in your testimony that since its creation, the 
Brownfields program has leveraged more than 104,000 jobs and 
$22.1 billion in cleanup and redevelopment. Can you, again, 
sort of digest down from an investment perspective what is our 
return on investment on the taxpayer's dollar when it comes to 
your program's impact on local communities?
    Mr. Stanislaus. In terms of the direct return on 
investment, I am going to have to get back to you. So there are 
various other indications of that. So I noted the land use 
value increases in my testimony. I noted the one for $18 
leveraging.
    So we have various kinds of indications. We are actually in 
the middle of a study of the tax revenue increase based on the 
land use value increase. So I will get back to you when that 
study will be finished.
    Ms. Esty. Thank you.
    I noticed in your written testimony you cite an example 
from our district. In 2009, the EPA awarded a job training 
grant to the Northwest Regional Workforce Investment board in 
Waterbury, Connecticut, and I want to let you know that that 
grant made it possible to develop and implement a job training 
program for unemployed and underemployed individuals in my 
district, in partnership with Naugatuck Valley Community 
College.
    And the graduates of that program had a very high job 
placement rate in the environmental field. How do you measure 
success of the Environmental Workforce Development and Job 
Training Program?
    And, more generally, what are the goals of that program and 
its impact on jobs in the local community?
    And what more can we do in Congress to partner on these 
initiatives?
    Mr. Stanislaus. So I think you have cited one of the 
measures, that is, all people being hired at a fair wage, and I 
think both of these indications have been met at a very high 
level.
    Now, what we have done in the Job Training Program is we 
have really expanded the certification, expanded the skill set 
of the program. Now, the program is really focused on 
individuals that have a barrier to employment, you know, 
veterans, formerly homeless individuals, building that skill 
set to be employed.
    One of the real important aspects of this multiskilled, 
multicertification is that every grantee tailors their program 
around the local market. What we request upfront is partnership 
with local businesses and the kind of skill sets that the local 
businesses need. That's one of the reasons I think it's a 
successful program. A 70-percent hiring rate is a very 
successful program.
    So, I think continued support of that would be great.
    Ms. Esty. Thank you, and I can tell you that those 
initiatives are very meaningful because, again, they are 
addressing local workforce needs and getting back into the 
employment rolls folks like veterans and those who are 
underemployed in our economy.
    I wanted one more quick question for you. I noticed looking 
at last year's budget that only 32 percent of the Brownfields 
applications were able to be funded. With the President's 
request for an additional $30 million, what would that do in 
terms of the agency's ability to fund the strongest 
applications?
    Mr. Stanislaus. We project about 140 additional communities 
will be funded.
    Ms. Esty. Thank you. Again, I can tell you having one of 
those communities, it would make a meaningful difference, help 
bring down our unemployment rate and expand job opportunities.
    Mr. Kopocis, just briefly I wanted you to expand a little 
bit on the resiliency initiatives. This is something having 
survived Super Storm Sandy in the Northeast, having increased 
frequency of severe weather; can you talk to us a little bit 
about what the agency is looking to do in this regard?
    Mr. Kopocis. Thank you very much for that.
    Yes, we are looking to work with communities and with the 
utilities to make sure that we can help them meet their needs 
as they see them. Our program for climate ready utilities is a 
tool that is available online that people can use to assess 
their risk associated with climate change or the droughts, sea 
level rise or anything else that may be facing them that would 
threaten their resiliency and sustainability, and then they can 
put in whatever inputs they want to put in, and then it will 
help guide them to what are the kinds of actions that you might 
want to consider.
    So it is not a, ``OK, if you are threatened, you should do 
X.'' It is what works for you, and we have been getting very 
positive responses from communities. We are continuing to 
expand that.
    We are including a stormwater calculator, for example, for 
communities so that they can take advantage of it as well.
    Ms. Esty. Thank you.
    I will follow up with you off-line because we are looking 
to do some of this for, you know, greater drainage, different 
kinds of paving, et cetera, and it sounds like that would be 
right in your line.
    Mr. Kopocis. Would love to do it. Thank you.
    Ms. Esty. Thank you very much.
    Mr. Gibbs. Mr. Massie.
    Mr. Massie. Thank you, Mr. Chairman.
    Mr. Kopocis--sorry about that.
    Mr. Kopocis. That is all right. I have had it mispronounced 
before, sir.
    Mr. Massie. More than 700 communities have combined sewer 
systems that have periodically experienced combined sewer 
overflows, and many of these communities, a few dozen of which 
are in my district, are dealing with consent decrees from the 
EPA and enforcement actions.
    What are the EPA's plans and schedule for dealing with and 
resolving many of these enforcement actions?
    Mr. Kopocis. Well, thank you, sir, for that question. We 
are working very hard with communities to make sure that we can 
come up with realistic timetables to address combined sewer 
overflows. As you know, the combined sewer overflow policy 
dates back to the mid-1990s where the agency decided how it was 
going to work best with communities, and Congress enacted it 
into the Clean Water Act.
    Our integrated planning framework is designed in 
significant part to help communities with combined sewer 
overflow needs, and one of the things that we have heard is 
concerns of communities that we have not as an agency been 
flexible enough with communities and that the integrated 
planning framework is too often implemented solely through an 
enforcement action, and are there ways for us to work with 
communities to do it in a permitting context.
    So we are taking a good look at that. Part of the 
investment that we are requesting for fiscal year 2016 would go 
toward that, but we are also looking to invest fiscal year 2015 
funds to look at are there ways to incorporate the concepts of 
integrated planning into the permitting process as well so that 
communities are not forced to go through an enforcement action 
to get the flexibility they are looking for, but we can do it 
in a more collaborative way.
    Mr. Massie. Will the cities that are already locked into 
consent decrees be able to have their situations reexamined and 
reopen those discussions to modify the consent decree?
    Mr. Kopocis. Well, reopening a consent decree is not the 
easiest thing to do and that is not EPA's sole decision by any 
means once we are in a consent decree context, and then it 
also, of course, involved equities of the U.S. Department of 
Justice as well. So we have to work with them.
    But I think that what it does reflect is our willingness to 
be flexible. To reopen a consent decree, of course, there needs 
to be some changed circumstances that would cause us to support 
doing that.
    I think that our experience has been while many communities 
want to avoid being in a consent decree and we understand that, 
we have been getting very good results from our existing 
consent decrees, and we have talked with some communities who 
have come back to us and said they would like to revisit 
certain elements, particularly those that are putting in place 
green infrastructure and are getting different results and 
would like to expand perhaps the use of green infrastructure.
    Mr. Massie. Well, you know, in our communities that are 
under the consent decree, they are really struggling to put in 
that new infrastructure, and what it has done is to throttle 
growth in certain areas where the consumers and the residents 
of the area have seen, you know, 20 percent annual rate 
increases to the point where some people have seen their sewer 
rates double.
    And so the sanitation districts do not have the resources 
to put in new infrastructure for the additional homes that 
would be built there, and that is sort of holding back growth 
in these areas.
    So they would really like to see more flexibility in 
dealing with this consent decree and to see the EPA more as a 
partner than a prosecutor, which is, I think, how some of these 
sewer districts see it, and this in my district has been sort 
of the mother of all unfunded mandates.
    Do you have an idea of what the national cost of complying 
with these consent decrees has been in combined sewer systems?
    Mr. Kopocis. I do not have that estimate. I can check and 
see if we have it, and if we do, we will provide it to you.
    Mr. Massie. My indication is it can be--I mean, these sound 
like large numbers--in the billions instead of the millions. 
Some cities are looking at spending more than $1 billion to 
comply with this in communities.
    You know, everybody wants clean water, but there is a 
balance to be struck here, and I hope that the EPA will provide 
more flexibility, and when they do, what can EPA headquarters 
do?
    You know, you have expressed a willingness to have some 
flexibility with these communities, but we want to make sure 
regionally that message gets passed down. Are you doing 
anything to make sure that regionally they get the message 
across the country that flexibility should be looked into?
    Mr. Kopocis. Yes. Thank you.
    First, I understand the concern that you are expressing, 
and secondly, we are taking steps to address that, whether it 
is through our integrated planning framework, making sure that 
message gets out.
    We have been working with our regional offices, but we also 
meet regularly with our regional administrators and our 
regional water staff to talk to them about what it is that we 
are looking for in the way of flexibility. We at headquarters 
are emphasizing more flexibility and more creativity in how we 
meet, as you say, our mutual Clean Water Act goals in a way 
that works for communities.
    But we do understand that part of our task at headquarters 
is to make sure that that word gets out of the DC area and 
actually gets out into our regional offices.
    Mr. Massie. Well, hopefully they are watching this hearing 
today in the regional offices.
    Mr. Kopocis. Well, I could try sending them a copy.
    Mr. Massie. Thank you, Mr. Chairman. My time has expired.
    Mr. Gibbs. Ms. Edwards.
    Ms. Edwards. Thank you very much, Mr. Chairman, and to the 
ranking member as well and to our witnesses today.
    I really do want to give a special shout-out to the Federal 
workers at the EPA because I just think they do a tremendous 
job protecting our air and our water, and I just want you to 
know how much we value that and appreciate their hard work.
    Under this administration, the agency has actually 
instituted greenhouse gas reporting programs, issued guidelines 
essential to stopping and dumping of waste from mountaintop 
removal and valleys and streams and set stricter standards for 
vehicle fuel efficiency. It has been an amazingly productive 
EPA.
    And in the current budget request, the Chesapeake Bay is 
actually seeing a substantial increase in funding from $70 
million to an additional $3 million over the fiscal year 2015 
request, and I just want you to know how much we welcome that 
as Marylanders because I think this fragile ecosystem that is 
so important to the vitality of the States and the region is on 
the road to recovery, and that is in large part because of the 
partnership, true partnership, that we have had with the 
Federal Government.
    One of my concerns today though has to do with the Clean 
Water State Revolving Fund because I think they are also key to 
maintaining our Nation's wastewater needs, and so it was kind 
of disappointing to see that there has been a 23-percent 
reduction from the fiscal year 2015 enacted level, and let me 
tell you how those funds work.
    So for the States that receive those funds, they actually 
go into the structures and landscapes and everything else that 
actually contribute to the health of the Chesapeake Bay, and 
so, on the one hand, we are increasing the funding for the bay 
and its restoration but, on the other, we are taking away from 
the Clean Water State Revolving Fund.
    So I would really urge the administration to do some 
reconsideration here, and I think that we certainly should do 
that here in the Congress.
    I also want to point to another area that has been really 
important to me as a Member of Congress, and that is green 
infrastructure. We have heard some discussion about that today. 
I think it is cost effective. It is efficient, and the demand 
for green infrastructure grants we heard coming out of the 
Recovery Act and beyond has been over the top, and so 
jurisdictions recognize that, too.
    So thanks for the 10-percent increase in funding levels 
there.
    I want to get to, if we could, there has been a lot of 
discussion about the EPA rulemaking and a lot of misconception 
about that. So in the time remaining, I want to give you 
through our Deputy Administrator the opportunity to describe 
the rulemaking process, the numbers of comments that have been 
received, the changes that have actually been made from the 
beginning to now the proposed rule based on those comments, and 
then you know, I think that we have been going through about 
200 days of comments, which is sort of unheard of in a 
rulemaking process, and yet those are the kind of 
accommodations that the EPA has made because of the concern 
with this rulemaking.
    So I thank you for that, but I want you to take some time 
and explain to us what the process is, where you are going to 
go, and the level of attention that you have paid to make sure 
that this rulemaking finally clears up a decade long process 
that multiple administrations have been engaged in.
    And I will leave you the remainder of my time.
    Mr. Kopocis. Well, thank you, Ms. Edwards, and in 
particular thank you for the kind words of EPA.
    As many of you know, most of my working career has been at 
this building or in the Dirksen Building, and when I went to 
EPA I also never found a more dedicated set of professionals, 
and they work very hard to serve all of us and keep our waters 
clean and safe.
    The process for doing the Clean Water Rule really has been 
one of the most extensive both in terms of time and resources 
for outreach that this agency has ever contemplated. I went 
through earlier the fact that the agency has been involved 
through a series of guidance documents in trying to address the 
Supreme Court cases, and on those received hundreds of 
thousands of comments through the public comment period.
    We also engaged the public through a series of outreach 
meetings before this current rule went out, including States 
and local governments, and also I should have mentioned to Mr. 
Davis the small business community as well. While we did not 
think that the Regulatory Flexibility Act applied, we reached 
out to the small business community regardless.
    This rule, as I said, was put out on our public Web site 
the day it was signed on March 25th. It was out there for 
review until April 21st when it hit the Federal Register, and 
that started the clock for the comment period, which we 
extended twice.
    We extended it the first time because there were a lot of 
appeals. We put it out for 90 days. We extended it for 90 days, 
and then we wanted people to be able to have an opportunity 
before the comment period closed to actually look at the 
recommendations of the Science Advisory Board that were 
reviewing both our rule and the science that supported our 
rule.
    So we then extended the comment period again so that people 
would have a full 4 weeks to review the Science Advisory Board 
before their comments were due on the proposed rule.
    During that period of comment, we held over 400 meetings, 
the majority of which were around the country. We also, as we 
said, received in excess of 1 million comments. We held 
specific meetings with stakeholder groups targeting in 
particular State and local governments because of the unique 
role that they play, the States as coregulators and the 
municipalities as partners as well because the bulk of our 
water quality improvements come from municipalities.
    So we reached out to them. Since that time we have 
continued to reach out to people. We will be reaching out again 
before the rule goes final so that people can anticipate it. We 
will also be addressing issues, such as the transition period, 
grandfathering of existing determinations, how it is that you 
deal with this transition, what is the opportunity for somebody 
who seeks a permit to say, ``Well, I may have a jurisdictional 
determination, but I would like to have it reconsidered under 
the new rule.''
    So those will be transition questions as well that we plan 
to undertake.
    Ms. Edwards. Thanks, and I have greatly overextended my 
time.
    Thank you, Mr. Chairman.
    Mr. Kopocis. Thank you, Mr. Chairman.
    Mr. Gibbs. Mr. Graves.
    Mr. Graves of Louisiana. Mr. Stanislaus, I hope you are not 
feeling neglected today; I bet Ken is a great guy to testify 
with.
    Mr. Kopocis, appreciate you being here today.
    Louisiana is a somewhat unique State for a number of 
reasons, and one of which is the extraordinary watershed that, 
as you know, goes from Montana to the Canadian provinces, to 
New York, the largest watershed in this Nation, one of the 
largest in the world.
    I really struggle with waters of the U.S. definition or 
rule when you attempt to apply a national standard, in effect. 
In reading through the rule, and I have read through the entire 
thing, and in a previous life having served in the executive 
branch at the State level, I could interpret that rule to 
basically apply to virtually any lands in south Louisiana.
    And I had strong concerns about attempting to apply a 
national standard, and I wonder if you could briefly comment on 
that.
    Mr. Kopocis. Well, thank you, Mr. Graves.
    And I do not know if it is a breach of protocol, but I have 
known you for so long I will say congratulations. This is the 
first time I have seen you in person since your successful 
election, but congratulations.
    I think that you would find that for a State like 
Louisiana, and as you know, I am very familiar with the State, 
I think you will see very little change in terms of Clean Water 
Act jurisdiction. Today in Louisiana, as you know, the Clean 
Water Act applies obviously to the traditionally navigable 
waters and also the adjacent wetlands.
    I think that the tributary system, our definition is not 
really different except for the first time we are providing in 
the rule what is a tributary. We are putting more bounds about 
what can be considered a tributary and providing less 
discretion to the regulator as to what would constitute a 
tributary.
    Mr. Graves of Louisiana. Just very quickly I am going to 
interrupt. I know you would hate to miss my second, third and 
fourth questions.
    I just want to highlight very quickly though that the 
hydrology in the State is very different. Again, as I say, I 
have read the rule, and I feel very strongly that it could be 
applied to virtually all the lands in south Louisiana.
    The Administrator came before the committee and indicated 
that it would provide more certainty and insinuated, in my 
opinion, that cost of compliance would be lower. As you know, 
the cost of compliance even in your own assessment is higher, 
and the Small Business Administration raised serious concerns 
with the cost of compliance that the Corps and EPA have put 
forth.
    I will tell you right now I would be willing to place a bet 
with you. I would bet you right now. Perhaps I would donate to 
Sierra Club if you agree to donate to Koch Industries that this 
rule is going to be thrown out by the Supreme Court. I think 
that it goes well beyond the bounds of the law, and I will 
acknowledge to you that I think there probably are some 
challenges in the law and perhaps Congress has some 
responsibility to look at that, but can you tell me briefly, 
because I have other questions that I know you would love to 
hear, can you tell me briefly where you believe that the EPA's 
discretion in this case ends?
    Where are the sideboards here?
    Mr. Kopocis. Well, thank you.
    And I would take you up on your bet, Mr. Graves, but I 
think it would be unfair. I think Sierra Club needs the money 
more than the Koch Industries does.
    But I think that there are sideboards. In fact, that is 
what this whole rule is about, is providing that greater 
predictability and consistency. One of the things that we know 
is in a post-Rapanos world there have been so many instances 
where there are case-specific analyses that have to be done. 
They are done in 38 different Corps districts without any kind 
of real instruction as to how it is that these determinations 
should be made.
    And so this rule for the first time as opposed to what we 
have today, as I mentioned earlier, it is more specific as to 
what constitutes a tributary for purposes of jurisdiction. It 
is more specific as to what waters would be considered adjacent 
for purposes of jurisdiction.
    We are proposing to put in place a more transparent system 
for people, both the regulators and the regulated community, to 
understand what constitutes a significant nexus to comply with 
the instructions that the Supreme Court gave us.
    Mr. Graves of Louisiana. Thank you.
    Two quick things. Number one, we met as a result of the 
NACo Conference with numerous parishes that were in town in the 
recent weeks. Every single one of the parishes had on their 
list this--and it wasn't the certainty--it was the lack of 
certainty that they were concerned about.
    And so I want to ask you: will you please work with local 
governments and work with State governments before you finalize 
this rule to attempt to provide them more certainty?
    Last question very briefly, Mr. Kopocis, I think you are 
aware that coastal Louisiana has lost 1,900 square miles, 
including the majority of which would be jurisdictional 
wetlands. The majority of that is caused by the U.S. Army Corps 
of Engineers.
    Can you explain to me how you are going to hold them 
accountable under this new rule?
    Mr. Kopocis. Well, I do not know that there will be a 
direct applicability for the Corps' responsibility in relation 
to the lack of sediment deposition that is causing the problems 
in south Louisiana. I do want to though say that----
    Mr. Graves of Louisiana. So the private property owners 
will be treated differently than the Federal Government will 
under this rule?
    Mr. Kopocis. No. The Clean Water Act will apply to private 
property owners or public property owners the same.
    Mr. Graves of Louisiana. The 1,900 square miles of land 
lost in south Louisiana is a direct result, a direct result of 
Federal actions in south Louisiana, historic, ongoing, and will 
happen in the future, and I just want to ask you, Mr. Kopocis: 
is the Federal Government going to be treated in the same way 
in regard to enforcement as private property owners will?
    They are causing jurisdictional wetlands lost today.
    Mr. Kopocis. Well, the Clean Water Act applies to the 
discharge of pollutants or dredge material. In terms of the 
actions of the Corps that may be contributing to the erosion 
that is occurring if it does not involve either of those two 
actions, the Clean Water Act does not apply to it.
    But if I could, Mr. Gibbs, just one thing I wanted to say 
is that in terms of local governments, we met extensively with 
local government interests. A lot of them were individual 
communities, but we also met with NACo, the National League of 
Cities, and the Conference of Mayors, in particular. We 
convened them to represent their constituencies, and 
specifically discussed issues of importance to local 
governments.
    And I can say that what you can anticipate, what they can 
anticipate seeing in the final rule is that we listened very 
carefully and particularly to two areas that were common to all 
of their concerns, and that was how municipal separate storm 
sewer systems were treated under the Clean Water Act and would 
this proposed rule affect them, and then the other issue was 
the construction and maintenance of roadside ditches.
    Those were very important issues to them, and we have 
listened very carefully.
    Mr. Graves of Louisiana. Thank you, Mr. Chairman.
    Thank you, Mr. Kopocis.
    Mr. Gibbs. Mr. Huffman.
    Mr. Huffman. Thank you, Mr. Chairman, and my thanks to the 
witnesses for their good work and their testimony.
    As you know, California is heading into likely a fourth 
year of critical drought, and I know you are very familiar with 
the impacts and the concerns surrounding that. That is why, 
although I am pleased and supportive with respect to a lot of 
what is in the budget request, the one thing that stands out is 
the significant reduction in funding for the SRF Clean Water 
Program.
    It is very critical because West-wide there may be as much 
as 1 million acre-feet of water that could be brought on line 
through water recycling, advanced water treatment projects in 
the near term, in just the next few years. Many of these 
projects already have authorizations under title 16, a 
different program with a different agency.
    We are having a heck of a hard time supporting them through 
title 16 because that program has been politicized and 
essentially ground to a halt by our colleagues across the 
aisle.
    So one of the only ways that they can get Federal support 
and move forward with critical water recycling solutions to the 
arid West is through that SRF Clean Water Revolving Fund.
    So in a year like this of all times, I have to ask you: is 
a significant reduction in funding for that program 
appropriate, and does it leave you enough resources to support 
the critical need?
    Mr. Kopocis. Well, thank you for that question, and we are 
very sensitive to the serious issues being presented by drought 
out West and in some other areas of the country as well, but 
most severely and most notably in California.
    We had to make some tough choices in putting together the 
budget. We did hear Congress' request that the budget of the 
President stop having significant reductions in the requests 
for SRFs. So in both of the SRFs we requested more than the 
previous budget.
    We made the choice that we would make a greater investment 
in the Drinking Water SRF than in the Clean Water SRF to 
reflect the public health needs, to reflect what our larger 
documented needs are, and also to help work more importantly 
with small communities who have special needs that cannot be 
met the same as some of the larger communities.
    But we very much take to heart that, and we will continue 
to support the program, and we are continuing to look for ways 
to bring additional resources to the table.
    I mentioned earlier our Water Resiliency Financing Center. 
We are looking for ways to be more creative in financing, bring 
more money, some private sector money to the table. We also 
want to serve as a resource for communities to figure out are 
there more creative ways to meet needs.
    For example, sometimes a community will say that they have 
an issue that they need more drinking water capacity, but what 
we find is that--I will make up numbers--they are treating 40 
million gallons of water a day in their drinking water plant, 
but they are only treating 20 million gallons a day in their 
wastewater plant. Well, they do not have a drinking water 
capacity problem. What they have is a leaking pipe problem 
because there should be not a one-for-one, but there should be 
a figured ratio.
    So we are very much looking at that.
    Mr. Huffman. That is critical work, and I encourage you to 
continue that, and I am looking forward to working with EPA on 
all of these things.
    There is one other area though where I think your agency 
could make a tremendous difference relative to the SRF and the 
vital role that it can play during this drought, and that is a 
policy guidance that you have had for some time that restricts 
use of SRF funds for investments actually at houses and 
businesses that are actually customers of water districts.
    So my understanding is that EPA will not allow, for 
example, the State of California to use these funds to support 
water districts creating property assessed projects to retrofit 
water appliances or even to fix leaky sewer laterals, which 
can, as you know, make a big difference in the operation of 
wastewater facilities.
    There is a very proven track record on the repayment of 
these things through on-bill financing or property assessed 
agreements with homeowners and businesses, and in any event 
these districts would be on the hook for repayment of the loan 
anyway. It is purely a function of a policy guidance, a rather 
arbitrary view, in my opinion, view that EPA has had 
restricting these funds. Now of all times we should be looking 
at ways to leverage and maximize the value of these funds in 
the arid West, and I just hope that that is something you might 
be willing to take a look at.
    Mr. Kopocis. Well, thank you for that, and of course, in 
the amendments to the Clean Water SRF that were made in June of 
2014 as part of the water resources bill, the eligible uses of 
the SRF were expanded, and we will be in contact with you to 
see how we can best incorporate some of the concepts that are 
included in that, such as conservation, et cetera, and see how 
those could be worked in a way that addressed the needs that 
you are raising.
    Mr. Huffman. Thank you very much.
    Mr. Gibbs. Mr. Babin.
    Dr. Babin. Thank you, Mr. Chairman.
    I have a question for Mr. Kopocis. I am the congressional 
representative of District 36 in southeast Texas, and I served 
for 15 years on the Lower Neches Valley Authority, several of 
those years as the president of that river authority, and also 
I am a dentist by profession, but have been involved in the 
cattle business. We had a small operation.
    And when these proposals came to light initially, I think 
the greatest concern that we heard of farmers; ranchers; 
landowners; developers; State, local, municipal governments; 
officials was that the proposed waters of the U.S. rule--the 
fear they had was it was going to be an enormous power grab by 
the Federal Government.
    And we feel that the agencies involved here, including 
yours, failed to conduct outreach to State and local 
government. The lack of appropriate consultation was pointed 
out in comments filed by many State and local officials, plus 
organizations like mine representing the State and local 
governments.
    If the EPA and the Corps worked with States to develop the 
proposed rule as you claim, why did the majority, the vast 
majority of States, write comments in opposition to the rule as 
proposed and are asking the agencies to withdraw or at least to 
substantially revise the rule?
    Can you explain that please?
    Mr. Kopocis. Well, thank you for that question. I do not 
know that I can explain why a particular State or group of 
States took an action, but what I can say is that we did reach 
out to State and local governments in advance of the rule. We 
have had an ongoing dialogue. We did hear very loud and clearly 
the point that you just made, that the States felt that we did 
not do enough to reach out and engage with them before the rule 
went out.
    And that was why after the rule went out we set up a series 
of meetings that addressed not only State but also local 
governments so that they could participate with us, so that we 
could hear all of their concerns. We could engage in a dialogue 
with them as to what kinds of things they were interested in, 
what areas they thought we should change, and quite candidly, 
some areas that they thought that they very much appreciated 
what we were doing.
    There has been a longstanding request from State and local 
entities that the agencies engage in a rulemaking, which we are 
doing. I think many of the criticisms that we have heard are 
not so much that we are doing a rulemaking as there are 
elements of the rule that they want to disagree with, but that 
is the very purpose of the notice and comment period that we 
engaged in.
    We put a proposal out as a moment in time, and we seek 
people's comments on it. We welcome those comments. That is how 
we get a better product, and we think at the end of the day we 
will have a better product.
    Dr. Babin. Well, listening to someone's comment and then 
using the term ``consultation,'' which I believe was used, I 
think that means that folks thought in consultation that what 
their concerns were were going to be taken into consideration 
before the rule was finalized. And I am not sure that they feel 
that way, that they were done that way.
    Mr. Kopocis. And we understand that and we heard that. We 
did consult with the States. What we have heard in the meetings 
when the States have come in and talked with us are two things. 
One is a general statement of we wish you had done more, and 
the second one is we wish you had done it perhaps closer to the 
time that the rule went out.
    Because as you may well know, the agencies were working on 
a guidance document. The agencies then decided that the 
guidance document was not going to be well received and that, 
in fact, it really was not going to meet the needs of the 
American people because we cannot be as effective in changing 
how the Clean Water Act is implemented through guidance as we 
can through the rule.
    And, in fact, in the Rapanos case, Chief Justice Roberts 
specifically suggested very strongly that the agencies could 
really address a lot of these issues if they would do a 
rulemaking, and so we thought that it was time for us to go 
ahead and move forward on the rule.
    Dr. Babin. Thank you.
    Mr. Gibbs. Mrs. Napolitano.
    Dr. Babin. Thank you, Mr. Chairman.
    Mrs. Napolitano. Do you not have any?
    Mr. Gibbs. Well, I am going next, but I am giving you an 
opportunity.
    Mrs. Napolitano. Yes, I sure am. I will go for it. Thank 
you, sir.
    There are a couple of things that have come up, and you 
were talking about the ability for conservation and being able 
to help communities be able to capture as much water runoff, 
but also rainwater or anything else.
    And I know there was a program, and one of these days I 
will identify it, that helped some of the communities' berm, 
concave the medians and put in well plants, and that is a 
method of conservation, especially in years where you have 
very, very little rain.
    I would love to be able to get some report on where that 
would be because as we know, this is another method of being 
able to convince the cities that it is up to everybody to start 
capturing any water.
    The other area would be the USGS. Although it does not come 
under the jurisdiction of this subcommittee, the recharge for 
where you have runoff, dry storm runoff they call it, to be 
able to capture anything that is industrial, commercial, 
residential, and clean it and then put it back into either the 
aquifer if we know that the aquifers are capable of receiving.
    Somehow we need to have the agencies be able to talk to 
each other and cooperate in being able to identify additional 
ways that we can conserve, utilize recharge, utilize recycling, 
conservation, all of the above.
    So I would ask that maybe in the future you might suggest 
how you are working with other agencies or can work with other 
agencies to maximize the use of our precious water because 
there will be no more water, and the cycle of drought will 
continue according to everybody that we know.
    The other question that I have is 4 years back my 
colleagues unveiled the Budget Control Act and the arbitrary 
spending cuts in 2013, and even though as we have heard the 
economy is rebounding, but we have not been able to take off 
those handcuffs. We are still operating under those illogical 
spending caps.
    What impact has this had on your agency's ability to carry 
out its mission, one?
    And, two, in your opinion, what are some of those programs 
that have been hardest hit in your agencies?
    Mr. Kopocis. Thank you very much for that question.
    I am going to run through the several items that you raised 
in there, and I will hopefully get through all of them and 
answer your question, but I think, first of all, in terms of 
controlling stormwater and the effect on groundwater and 
recharge, there are a couple of different things. Obviously our 
green infrastructure emphasis is about when rainwater falls 
capturing it instead of rushing it off to someplace else and 
allowing it to percolate and operate more naturally as nature 
intended it to. And that addresses not only a water quantity 
problem, but it also addresses a water quality problem and has 
other multiple benefits.
    I think also in terms of how we look at recharge issues, we 
are members of the National Drought Resilience Partnership, and 
as is the Department of the Interior and the U.S. Geological 
Survey, but I will make sure that your point gets taken back to 
them, and we will get back to you in terms of what may be 
ongoing or what suggestions you may have.
    I also would want to make the point that water reuse and 
recycling activities, we know that they have been long ongoing 
in the West. We know that there is even a greater interest in 
that now. As part of our development of the Clean Water Rule, 
we heard from a lot of western interests who wanted to know 
``if I have constructed recharge facilities or transportation 
facilities associated with reuse and recycling and how might 
those be affected by the Clean Water Rule.''
    And we want to make sure that we get an answer to that 
question in a way that allows communities to engage in the kind 
of recycling and reuse of water which we all know they need to 
engage in and they want to engage in.
    Then in terms of some of the limitations, our agency has 
been cut back. There is no doubt about it. We are now looking 
at an agency that is substantially below its funding levels 
both in terms of the money that we have available to us to 
share with States, tribes, and localities, but also to do our 
basic work.
    And there are shortcomings in our ability to develop ways 
to protect human health and the environment, and yet what we 
find is people continue to ask us for help in protecting health 
and the environment. I mean good examples that we are all 
familiar with, a little over a year ago when Charleston, West 
Virginia, had the spill of MCHM, and I do not know what that 
stands for, but when the MCHM spilled in their drinking water, 
they came to EPA and said, ``We need to know what are the 
health standards. Is our water safe to drink?''
    We actually did not have a health standard for that 
particular chemical, but we worked with the State and we worked 
with the city of Charleston to make sure that the water was 
safe for the people in Charleston.
    Last August when the city of Toledo had harmful algal 
blooms that resulted in outbreaks of microcystin and 
cylindrospermopsin, and I had to learn to say that one. It is 
cylindrospermopsin. The city of Toledo and the State of Ohio 
said, ``EPA, we need your help.''
    And so we are often the people that everybody comes to, but 
it is getting harder and harder for us to maintain those kinds 
of capabilities. We are in the process, for example, on harmful 
algal blooms of developing health advisories because that was 
one of the shortcomings. They said, ``Do you have an 
advisory?'' And we said no.
    There is a World Health Organization advisory, but EPA had 
not developed one. So we committed resources to developing 
those advisories in time for this summer's algal bloom season, 
and we know algal blooms will exist. They existed the year 
before in 28 States.
    And so those are the kinds of things that continuing 
pressure on our budget causes us to not be able to do in a 
timely way.
    Mrs. Napolitano. That just brings to mind that there are 
agency issues that can be cooperated that work across because 
of the fact that, as you have said, you did not have any 
protocols for that kind of an assist. Well, we need to be able 
to work across the agencies to make sure that our cities do not 
have to do multiple permitting or being able to have delays or 
trying to figure out what is the best way to do things.
    So with that, thank you, Mr. Chair, for being so indulgent.
    Mr. Gibbs. I will start with Mr. Stanislaus.
    Concerning the Brownfields Executive order on the new 
regulation on flood and raising it 2 to 3 feet, my question is: 
is that going to eliminate any Federal dollars going to a lot 
of Brownfields? Because I am thinking a lot of Brownfields are 
in low lying areas close to rivers.
    Have you thought about that or do you have something? Is 
this Executive order going to eliminate a lot of Brownfields 
redevelopment?
    Mr. Stanislaus. I am not sure that I can answer that 
question at this moment. I can get back to you.
    Generally, the eligibility for Brownfields grants are going 
to be preserved, and if a community can demonstrate that they, 
in fact, have a perceived contaminated property with some 
opportunity for redevelopment, they are eligible.
    Mr. Gibbs. My question is if you cannot get the Brownfields 
up 2 or 3 feet from the Executive order and there are no 
Federal dollars that can even go in there to clean up, that is 
what I am wondering, to redevelop that.
    I think that is a concern I wanted to raise because that is 
a possibility. That might be an issue because I am thinking 
there are a lot of Brownfields that would be in that category 
that could be an issue.
    Mr. Kopocis, to start off, we talked about in the final 
rule there is going to be a lot of clarification. I know 
Administrator McCarthy said that in the joint bicameral hearing 
we had. My question is: some of these clarifications, are they 
going to be in the actual rule or are they going to be in the 
preamble to the rule?
    Mr. Kopocis. We are anticipating changes to the rule 
language itself.
    Mr. Gibbs. OK. Because you know if you put it in the 
preamble, it does not really have any standing.
    Mr. Kopocis. We understand the significance of that, sir.
    Mr. Gibbs. OK. We had some discussion and questions from 
other Members, and you mentioned it in your testimony about the 
need to clarify types of waters covered under the act and under 
this rule. Can you be more specific?
    We are hearing that it is really questionable, and I am 
going to give you an opportunity to define water or potential 
water in detail and what is not water. That kind of seems a 
little ridiculous, but under the context of this rule.
    Mr. Kopocis. Well, the proposal does not include any 
language to define what is water. We believe that that is 
fairly well understood as to what constitutes water.
    It does come up in----
    Mr. Gibbs. What is ``a water''?
    Mr. Kopocis. ``A water''?
    Mr. Gibbs. Yes.
    Mr. Kopocis. We are defining different types of waters that 
we consider to be jurisdictional. The list is the current rule 
and the proposed rule. A lot of that is the same. It is the 
traditionally navigable waters, the territorial seas, 
tributaries, which for the first time we are offering a 
definition in the regulation itself of what constitutes a 
tributary, to provide less discretion to the regulator as to 
what they consider to be a tributary.
    Because an important part of that is the distinction 
between what is a tributary and what is an erosional feature. I 
have spent a lot of time and the agency has heard a lot from 
representatives, particularly of the agricultural community, 
who are very concerned that erosional features in farm fields 
would suddenly be found to be tributaries and, therefore, 
jurisdiction----
    Mr. Gibbs. Or as ephemerals.
    Mr. Kopocis. Or as ephemeral streams, although the agencies 
today do exert jurisdiction over ephemeral streams, but I think 
that the key piece there is to make sure that we can specify in 
the rule what constitutes a tributary and what constitutes an 
erosional feature, recognizing that we do not consider 
erosional features to be jurisdictional today, and we did not 
propose that they would be jurisdictional in the proposal 
either.
    We are also looking to add language that better specifies 
what constitutes an adjacent wetland or water. We think that 
today the term exists in terms of adjacency, but it does not 
have as much definition around it.
    We proposed to look at concepts such as the flood plain and 
riparian area. We received a lot of comment that the use of the 
term ``flood plain'' was not specifically well defined because 
in our proposal we suggested that we would look at various 
sizes of flood plains depending on regional variations.
    And the comment that we received is that the commenters 
would prefer to see us be more definitive. Yes?
    Mr. Gibbs. I will stop you there. In our previous bicameral 
hearing, Administrator McCarthy said a lot of these we will 
have to look at on a case-by-case basis, and I think that opens 
up a lot of subjective determinations by your people out there 
or the Corps people.
    I will get a little specific. Grass waterways on farms that 
only have water in them when it's raining, and obviously the 
water flows down through the grass waterways into the ditch.
    I will use an example on my farm. I have highly arable 
land. It comes out of the field, goes to the grass waterway, 
goes down the ravine, gets into the grow ditch and flows into 
the creek, Lake Fork Creek, and then flows into the Mohican, 
Muskingum, Ohio and you know the rule.
    Obviously, water flows downhill. I'm a little bit concerned 
the EPA could hide behind the Science Advisory Report. We 
talked about the significant nexus and all that. If we all know 
that water flows downhill, and I think there's a lot of ability 
in discretion for the regulators to come out. Can you 
categorically say that grass waterways are not waters of the 
United States? Township road ditches, county road ditches, are 
not waters of the United States?
    Mr. Kopocis. Well, I--I can't say definitely across the 
board. What I can say, because some of the questions that 
you're asking would involve a possible change in what's in the 
proposal, and what we might do in a final rule, but what I can 
say is that you're describing a grass waterway, for example, 
that you put in to conserve soils, slow down water, reduce the 
pollutant impacts downstream, that occurred through no 
particular fault. I mean, that's just what happened.
    Mr. Gibbs. It's mother nature.
    Mr. Kopocis. Yeah. It--yeah, it's mother nature. It rains, 
and dirt moves. So that was the very situation that Mr. Graves 
was talking about, that created southeast Louisiana.
    Mr. Gibbs. Yeah.
    Mr. Kopocis. So the--what we are looking at is trying to 
create a balance so that we can know, is there a need for us to 
say that a grass waterway is something where there needs to be 
Clean Water Act jurisdiction, when in fact what it's doing is 
it's offering, as a conservation measure, the very water 
quality benefits that we want to encourage. And so putting more 
regulation on that to discourage that kind of activity, we 
think would be counterproductive to what our ultimate goals are 
on water quality.
    Your question in terms of ditches along a particular road. 
I think that we--there was no single topic that I heard more 
about than ditches. I did not realize that America was fixated 
on ditches, but I now know that it is. And, but we know----
    Mr. Gibbs. Especially out in western Ohio, in Paulding 
County for example, where I know there's farms out there you 
can go a mile, and there's less than an inch drop. So ditches 
are really important for drainage. In my area, the ditches are 
naturally occurring, because we're in hill country.
    Mr. Kopocis. Right.
    Mr. Gibbs. Appalachia foothills. So ditches are very 
important. Let's talk about Paulding County, where it's flat. 
The water runs off the field, into the ditch. It could take 
nutrients.
    Mr. Kopocis. Right.
    Mr. Gibbs. We have that issue, especially in northwestern 
Ohio. And of course the State EPA's heavily involved in 
regulating that water. And, and my concern is we open that up 
to waters of the United States, and then it opens up the 
ability for the bureaucrats to come out and say that Farmer A, 
Farmer B, you have to go out and get permits. So you have to 
get 404s. And it doesn't help us improve that. My overwhelming 
concern is when you put so much redtape bureaucracy and make 
this more difficult, at some point people are just going to 
throw their hands up. And we can actually go backwards.
    Mr. Kopocis. Right.
    Mr. Gibbs. And I think that's a point we need to remember.
    Mr. Kopocis. Yes. Thank you again. And I think that we 
heard that very, very clearly. And we heard that what we were 
proposing to do in relation to ditches did not meet the needs 
of what we were trying to accomplish or what, what made sense 
from a water quality standpoint. So what we're, what we're 
looking at is to see how we could make changes to the rule to 
emphasize the ditches that we assert jurisdiction over today. 
And those are basically two categories of ditches. Those are 
the ones that are effectively channelized streams. There used 
to be a stream there, but somebody came in and modified it, 
straightened it, and you know, and channelized it. And I think 
people have a really good sense of where those are.
    I spent a lot of time, even out on farmers' fields working 
with them and talking with them, since the rule came out, 
meeting with them and talking about this. And my sense is that 
people understand what those are. They know where their 
channelized streams are. The other ones are ditches that 
effectively operate as tributaries, that have the 
characteristics of tributaries. And again, I think people have 
a pretty good understanding.
    What the Clean Water Act does not apply to today, and we're 
not proposing to have it apply to, are the thousands and 
thousands of miles of the ditches that you're describing in 
Ohio. These are ditches that are constructed along roadways. 
They provide exactly the function that they were designed to 
do. They take water off of the highway, so that the highway is 
safe to drive on. But they also maintain the structural 
integrity of that highway, by keeping that water away from the 
base and not allowing it to be harmed. The Clean Water Act does 
not apply to those ditches as jurisdictional waters. We do not 
look to expand the extent of the Clean Water Act, or apply the 
Clean Water Act to those waters.
    Mr. Gibbs. Is the rule going to really specifically say 
that? Or is it going to be open-ended enough for discretion or 
subjective determinations?
    Mr. Kopocis. We are--it--we are looking at, what are the 
opportunities for us to change the language in the rule itself 
to accommodate the kinds of principles that I'm articulating. 
I'm--I wish I--I realize I'm being a little obtuse.
    Mr. Gibbs. Why is the EPA being unwilling to make these 
revisions and come back to this committee and Members of 
Congress and the public and the States, and discuss that before 
they implement the final rule? Why don't they lay their cards 
out and say, ``Here's the revisions we made,'' and let's have a 
discussion, and make sure that's happening? Why is there an 
unwillingness? Your boss, Ms. McCarthy, said, ``We're moving 
ahead.'' It's not necessary to do that. Why? I don't understand 
the reason for that.
    Mr. Kopocis. Well, we--we believe that these issues have 
been thoroughly vetted. We believe that we, we do----
    Mr. Gibbs. Why are you afraid to, before you actually 
implement it and you think they're vetted, put it out for 60 to 
90 days? And let us see it and let us have that input.
    Mr. Kopocis. Well, we believe that it's time for us to go 
final with the rule, get it out there, and get it into the 
public domain, so that we can provide the greater clarity and 
consistency that we think a final rule can provide.
    Mr. Gibbs. Well, I think that's rushing it. There's been so 
many comments. I think you're also leaving the door wide open 
for litigation. I think that will be coming--unless you are 
actually able to make these fixes. Which I don't have a lot of 
confidence that that will happen.
    Mr. Kopocis. Well, we're--sir, we're pretty sure that there 
will be litigation over the rule. We at EPA are, as I said, we 
took special pride that the pesticide general permit is not 
subject to litigation. But the--we anticipate there will. But 
we think that we'll have a very strong rule that will be highly 
supported by the law. Both the Clean Water Act itself----
    Mr. Gibbs. OK. OK.
    Mr. Kopocis. The Supreme Court and----
    Mr. Gibbs. OK. I want to ask, during our bicameral hearing 
in February this year, Ms. McCarthy discussed how the EPA was 
still seeking, speaking to outside groups, including 
municipalities, on how to improve the rule. I want to know what 
is the process the EPA is following in carrying out this 
activity? Who exactly is the EPA talking to during this extra-
regulatory, post-comment period?
    Mr. Kopocis. Sir, it's not unusual for the agency to have 
conversations with interested parties. We do not solicit 
additional comment during that period. Any conversations that 
we have with outside parties are docketed so that the public is 
aware that we had those conversations. But if----
    Mr. Gibbs. Can you identify those parties?
    Mr. Kopocis. Can we identify them?
    Mr. Gibbs. Who have you been speaking to?
    Mr. Kopocis. Yes. We can produce that.
    Mr. Gibbs. OK. Appreciate that. Thank you.
    Mr. Kopocis. Yeah.
    Mr. Gibbs. We've heard from numerous stakeholders that the 
EPA is essentially road-testing this proposed rule and 
informally implementing the new rule out in the field. Can you 
describe if, you know, if the EPA has actually begun 
implementing the rule, to test it? Has that been occurring or 
not?
    Mr. Kopocis. I am unaware that that has been occurring. As 
you know, overwhelmingly, the jurisdictional determinations 
under the Clean Water Act are made by the Army Corps of 
Engineers. As far as EPA's action, I am unaware that we are 
road-testing this rule in any fashion.
    Mr. Gibbs. OK. I do have a request, and you have staff back 
there, so they're ready to take notes on this request. As you 
said, the EPA has done extensive outreach to the stakeholders 
regarding this proposed rule. And you said you've had some 400 
stakeholder meetings around the country. And I've got some 
specific requests on--obviously you'll have to get back with 
me--your staff can--with a written response.
    But please identify each of the stakeholder meetings that 
was held, including the date and location at which they were 
held. Provide a complete list of the Federal agencies, being 
the EPA, the Corps, and any other agencies and Federal 
contractor participants at each stakeholder meeting. Identify 
all the stakeholders who participated in each stakeholder 
meeting. Provide all handouts and other presentation materials 
from each stakeholder meeting. And provide all transcripts, 
official notes, assessments, reports, papers, and other records 
of each stakeholder meeting, for the proceedings and outcomes. 
And finally, identify the amount of staff time, travel costs 
and other expenses incurred by the agencies for each of the 
stakeholder meetings. I'm trying to get a depth.
    You're saying that there's been an extensive outreach. And 
we hear otherwise. We want to see some documentation on that. 
Earlier in our discussion we talked about the comment period. 
And the substantive, or you say, unique comments. And I'd like 
to have documentation of the 19,000 that you think are unique, 
how many are for or against. And so we'd like to see a 
breakdown of that. And so we'll know our specificity on the 
comments.
    The Small Business Administration's Office of Advocacy, 
SBA, recently concluded that the EPA and the Corps have 
improperly certified the proposed waters of the U.S. rule, 
under the Regulatory Flexibility Act, because it would have 
direct significant effects on small entities, and recommended 
that the agencies withdraw the rule. And that the EPA conduct a 
Small Business Advocacy review panel before proceeding any 
further with this rulemaking. Furthermore, the Small Business 
Administration, along with many governmental and private 
stakeholders concluded that EPA and the Corps conducted a 
flawed economic analysis of the proposed rule. The analysis has 
ignored the impact of the rule. The Clean Water Act's 
regulatory programs do not adequately evaluate impacts of the 
proposed rule. What is the EPA's response to the SBA's Office 
of Advocacy's comments on the proposed rule?
    Mr. Kopocis. Well, in terms of our, our comments, of course 
we did discuss the compliance with the Regulatory Flexibility 
Act, with the Small Business Administration's Office of 
Advocacy. And this was, we talked about earlier, we did not 
agree as to whether we needed to convene a panel under SBREFA 
to review it. We did, however, reach out to the small business 
community, with the assistance of the Small Business 
Administration's Office of Advocacy, to put together a panel, 
before the rule went out. Which it--they were very careful. 
They said that they did not consider that compliance from their 
perspective with the Regulatory Flexibility Act, but they did 
assist us in putting together a panel.
    Mr. Gibbs. OK. And where----
    Mr. Kopocis. Which we----
    Mr. Gibbs. Where is the documentation on the responses back 
and forth from them?
    Mr. Kopocis. On?
    Mr. Gibbs. With the Small Business Advocacy review, do you 
have documentation of the responses that----
    Mr. Kopocis. I'll have to check if there was something 
specifically responding to them.
    Mr. Gibbs. OK.
    Mr. Kopocis. There is an analysis of our certification 
under the Regulatory Flexibility Act. It's included in the 
preamble to the proposal. And then, and then we also, after the 
rule went out, during the period of comment----
    Mr. Gibbs. I guess the documentation would be the meetings 
that were held and discussions.
    Mr. Kopocis. We'd be able to get you the dates and that.
    Mr. Gibbs. Yeah. OK.
    Mr. Kopocis. Then what, during the public comment period, 
we then reached out to the Small Business Administration's 
Office of Advocacy again, and asked them if they would convene 
another meeting, which they did, under the same circumstances. 
They made clear that they did not consider that in compliance 
of their position related to the Regulatory Flexibility Act, 
but they convened another small business--another meeting of 
small business interest, which I personally participated in. I 
don't remember--that's--I'm thinking it was like June or July, 
but we'll get you the exact date of that meeting. And to the 
extent we have a list of participants, we will get you that. 
We'll get you everything we have on that.
    Mr. Gibbs. OK.
    Mr. Kopocis. So we had done that. And then in a lot of the 
meetings that the 400-plus meetings that you asked about 
earlier, a significant number of the participants were of 
course representatives of small businesses as well.
    Mr. Gibbs. OK. Kind of changing the subject matter. Can you 
give me an update on the implementation of the WIFIA program?
    Mr. Kopocis. Thank you. In the WIFIA program, we began last 
summer, shortly after Congress enacted the program, a series of 
stakeholder meetings across the country to hear from people 
what their thoughts were. In fact, I should say, even before 
that, when the staff came in and we chatted about it, my 
reaction was, ``We don't have any money to do this, but I can 
assure you that Congress isn't going to want us to sit around 
and wait until there's a special appropriation to fund us.'' So 
we reached out to stakeholders. We also reached out to the 
Federal Highway Administration.
    Mr. Gibbs. Yeah.
    Mr. Kopocis. Because of course it's modeled after----
    Mr. Gibbs. After TIFIA, right?
    Mr. Kopocis. Right. So not, you know, not trying to start 
with a blank sheet of paper. That was my first reaction, based 
on having been around for TIFIA. I said, ``Talk to the Federal 
Highway Administration. How did they do it? How did they set it 
up?'' So we--we had extensive conversations with them, which 
were very useful, in how to set that up. We then had available 
to us, Congress provided us with up to $2.2 million during this 
fiscal year, to look at standing up that program, and getting 
it ready. And the--and the budget requests for 2016 asked for 
another $5 million dollars, so that if it is funded, we will be 
ready to go.
    Mr. Gibbs. Because I really pushed hard for that. When 
you're talking about drinking water, infrastructure, and 
wastewater, and complying sewer overflows issues. And we know 
that there's well over a trillion-dollar cap on costs out 
there. And you can't charge the ratepayers enough to get there. 
And I think this is a--if there's an opportunity for public-
private partnerships, this area has to be the most optimum 
place. Because they have a revenue stream coming in from the 
ratepayers. I think there's a lot of private capital out there 
that's looking for a relatively safe investment and a decent 
return. And I think it's safe, because if you look at this SRF 
default rate, it's, it's you know, almost nonexistent.
    Mr. Kopocis. Zero.
    Mr. Gibbs. I think that's a good program. They can get some 
private capital in there. It's a win-win for both sides. And 
the villages and municipalities. And of course the WIFIA 
program has an aggregation factor. So smaller entities can 
participate when you aggregate. I think it was $20 million, if 
I remember.
    Mr. Kopocis. Projects over is it $20 million or $25 
million?
    Mr. Gibbs. Yeah.
    Mr. Kopocis. $20 million?
    Mr. Gibbs. Yeah. Twenty million dollars, I think, yeah.
    Mr. Kopocis. Yeah.
    Mr. Gibbs. I'll just encourage you. I think that's a great 
program. That can really address these issues of where 
villages, municipalities are struggling to get up there to 
where they need to be because of growth. And a lot of times 
it's growth.
    Mr. Kopocis. And sir, we are working on it, very, very much 
so, with the resources that Congress gave us and the resources 
that we've requested. TIFIA program was enacted I think in 
June. It took them about a year to get regulations out. And 
they were making their first loan about a year after that. We--
we would be hopeful. I can't make a promise. But we can be 
hopeful, since we're not starting with ``How do you do this?'' 
We have a model.
    Mr. Gibbs. Yeah.
    Mr. Kopocis. That we can be ready.
    Mr. Gibbs. Well, I think that's a good, good approach. I 
know it's a little different from TIFIA but, I think, at least 
it's another integrated planning and permitting initiative, 
which your predecessor, Ms. Stoner, supported. I think the EPA 
does support it. I think it's supported out in the country, 
because they're tied in, I believe, to the 5-year permit cycle, 
correct?
    Mr. Kopocis. Yes.
    Mr. Gibbs. And some of this, they can't get there, because 
they don't have the resources, but they have some flexibility. 
And I just question the EPA says they support it. But in 
practice, are they really working? And that's--we're hearing 
some things, you know.
    So I guess my comment is, I think there's an opportunity 
there to give local governments some flexibility and get to the 
goal everybody wants to get to. But it might take 7 or 8 years, 
or 10 years. They might want to address an issue that is 
different than another municipality's. So one-size-fits-all 
policy coming out of DC. That's constraints and it isn't 
really--when flexibility's the key word on that. If you just 
want to comment on the integrated permitting, where we're 
headed, and where we are making that work.
    Mr. Kopocis. Well, we are devoting time and resources to 
integrated planning. We consider it to be something that is a--
is going to be a key way for communities to come into 
compliance with what they all want. And that is to make sure 
that their drinking water is safe and that the water that, the 
waters that they fish in, swim in and play in are safe as well. 
I think that you know, we've--we've devoted resources in our 
current fiscal year. We've asked for $13 million in fiscal year 
2016 to really ramp up our efforts. We particularly want to 
explore what are the opportunities for us to do this outside of 
the enforcement context.
    We have regular conversations with the--with individual 
communities, but also with the representative communities. 
Because I mentioned, like, the Conference of Mayors, for 
example, who really want to work with us on this. And--and to 
the extent we have a framework, I'd--I'd like to think that it 
is really designed--it's a singular framework which has an 
unlimited number of possibilities for how it is that you 
develop a framework for meeting those water quality goals. This 
is something that our Office of Water works very closely with 
our compliance people in the Office of Enforcement and 
Compliance Assurance, making sure that we can do this in a way, 
again, that works for communities. We also work closely with 
the Department of Justice on this quite--if you were not aware 
of that. Because of course ultimately if there is an 
enforcement action, it--while our offices are deeply involved, 
it's the Department of Justice which is the face of the United 
States. And so we are also working with them.
    Mr. Gibbs. That's true. Let me stop you right there. That's 
good. Because I remember when I was on the State legislature, 
we had some issues with the State EPA, and sometimes they'd be 
turned over to the Attorney General's Office, and they said 
they couldn't discuss it anymore. And it frustrated me, because 
we could simply work it out. And of course what happened to the 
State EPA, in this case, this was years ago, they filed in my 
rural counties, and the county lease judge threw it out. It 
gets to how EPA, at the time--so it didn't do them any good, 
but we can work these things out without going to litigation. 
And so I think it's good if you can have the Justice Department 
working in concert. And make them recognize that we're getting 
there, but we got to be reasonable and pragmatic in how we get 
there.
    Mr. Kopocis. Correct. And that's been a key component for 
us as well, is making sure that all the parties that need to be 
at the table can be at the table. Make it available for them to 
bring in what it is that works. And we think one of the 
hallmarks of the integrated planning framework is, this isn't 
us telling a community, ``This is what we think you ought to 
do.'' The starting point for the integrated planning framework 
is for the community to say, ``This is what we think we can 
accomplish.''
    Mr. Gibbs. Yeah.
    Mr. Kopocis. Knowing what their responsibilities are. But 
then them coming back and saying, ``This is what we think we 
can accomplish in this timeframe.''
    Mr. Gibbs. So do we have any of that going on, examples 
that there's been some----
    Mr. Kopocis. Well, one good example recently is Lima, Ohio. 
The mayor of Lima, Ohio, who is one of our agency's biggest 
critics, related to meeting their water quality goals and 
responsibilities, is now one of our--sings praises, because of 
the integrated planning framework that we were able to reach 
with Lima, Ohio.
    Mr. Gibbs. OK.
    Mr. Kopocis. I met with him as part of a Conference of 
Mayors group, 3 or 4 months ago. And he was extremely positive 
about the work of our agency. And this was after many years of 
him being, shall we say, much less than positive about our 
agency and working with our agency.
    Mr. Gibbs. I think he might have actually testified for 
this committee.
    Mr. Kopocis. I believe he has.
    Mr. Gibbs. Twice.
    Mr. Kopocis. I think he may have done it before he was 
happy with us.
    Mr. Gibbs. Yeah, I think so. Another question. Regulatory 
consistency between EPA regents--and I know there was, in 2013 
there was Iowa League of Cities received in the Eighth Circuit 
Court. And this was in regard to the practice of what they call 
blending. It's partially and fully treated wastewater, inside 
the treatment plant, to discharge to nearby waters. And then 
take that further. So there's been other court cases. It might 
not always be with water. It might be with air. My overall 
question is, when, I guess in these cases, the EPA lost the 
case.
    Mr. Kopocis. Yes, sir.
    Mr. Gibbs. OK. Are they applying the court decision only in 
that Federal District Circuit Court region, or are they 
applying nationwide?
    Mr. Kopocis. Right. The Iowa League of Cities case we are 
applying the Eighth Circuit. Outside of the Eighth Circuit, we 
had made a decision that we would look at the Iowa League of 
Cities case, and on a case-specific basis, as it applies to a 
particular community.
    Mr. Gibbs. And what kind of criteria do you use to make 
that determination?
    Mr. Kopocis. We look at--we will look at each of the 
factual circumstances as they are presented to us. We continue 
to apply our rules and regulations as they are written. If a 
community comes to us with a set of facts or circumstances, 
where the Iowa League of Cities case could conceivably be 
applicable, at least the terms of that case, then we do sit 
with the community and we evaluate it on that case-specific 
basis.
    Mr. Gibbs. OK. Well, I want to thank you both for coming. 
You did not get as many questions so I'm sure you're not 
offended by that. Go ahead.
    Mrs. Napolitano. Since my Chair has been very nice in 
allowing me some time, I just want to thank you. There have 
been many complaints sometimes in California over EPA, and EPA 
has been more than generous with their time. Jared up in San 
Francisco, I've had him before the Councils of Government. 
They've asked direct questions. And as I was commenting to my 
colleague that one-on-one works a lot because you're able to 
express the actual issues that affect our communities, and I 
know you do not have the staff to do it, but it's very helpful 
to be able to have the understanding, and as you have gone 
through your rulemaking is being able to apply some of that 
minuteness, if you will, to being able to address that not only 
one area may be affected, but many others may have the same 
question and are unable to pose it for whatever reason.
    So we thank you. You've done a great job in many of the 
California areas, and we still have some issues, but I really 
appreciate the job that your staff has done, and EPA continues 
to be responsive, and we trust that we will continue to 
safeguard our waters and our air.
    Thank you so much to both of you.
    Mr. Gibbs. I just want to say in closing, you know we all 
want to protect the environment and clean water and do what we 
can, and I think as we had so much discussion on the Clean 
Water Act, we've come a long ways in four decades, I guess 
since it was passed or however long it's been now, and we still 
have challenges out there, and I did have one followup question 
I just thought.
    We were talking about the Toledo drinking water issue. I 
want to just mention to you, and maybe you want to comment, the 
Cleveland dredging issue in the port of Cleveland. I do not 
know if you're aware or not, I've been working very hard to 
make sure that dredging happens every year because it's a huge 
economic impact if it doesn't happen. Thousands of jobs are at 
risk, and through the Army Corps and how the EPA's had a 
disagreement on that dredge material in Cleveland has been 
PCB'ed contaminated, and all the years they've been putting it 
in a CDF-contained landfill and the Corps has determined that 
they think 80 percent of it is clean enough to open lake 
disposal. The Ohio EPA says no; they won't give them the 401 
water quality to do that.
    So we're working through that and we're going to get the 
dredging done, but it's probably not going to go out in the 
lake, but the Corps did acknowledge that they would take it 9 
miles out to get away from the Cleveland intake. So that 
acknowledgment alone tells me that there's a problem, OK?
    And the fish advisories, they have fish advisories for the 
PCBs, and the Ohio EPA is concerned that if they put the dredge 
material out there, there is a good possibility it could raise 
the advisory from being once a month or once a week consumption 
to more restrictions.
    And I think this is kind of unique, the situation where we 
have the Ohio EPA, a Republican administration, adamantly 
opposed to open-lake disposal--and that's what they call it; 
the Corps calls it open-lake placement--and then we have 
disagreeing on this issue, and I think it's noticeable to me 
that the U.S. EPA has not commented on this debate between the 
two agencies and I do not know if you want to comment, or if 
you're aware of what's going on in Cleveland.
    Mr. Kopocis. Well, I am not familiar with the particular 
circumstances you're describing. I am particularly with the 
long history and the Great Lakes of the need for CDFs as 
opposed to open-lake disposal--and that's what I grew up in 
this committee calling it, it was open-lake disposal--so I am 
familiar with the serious issues that can be----
    Mr. Gibbs. Especially Lake Erie because it's so shallow and 
so sensitive.
    Mr. Kopocis. The shallowest lake with so many people that 
rely on it directly for their drinking water. So I can work 
with our folks in region 5 with Susan Hedman, our regional 
administrator, to help get us informed. I do not know the 
status of it.
    Mr. Gibbs. I just want you to know I think we've been 
working really hard on this. I think we're getting it worked 
out, but I just thought it was kind of interesting that the 
U.S. EPA was involved because you made a comment that during 
the clean water drinking crisis last August that the U.S. EPA 
got involved. I do not know the extent. I know the State EPA 
was actually involved a lot, and one thing the State 
legislature in Ohio just passed, a bill, that dredge material, 
especially targeted for Toledo because there's 800,000 cubic 
yards I think and it's quite a lot--it's nutrient-rich, 
phosphorus especially that can cause algae--by 2022 will not be 
allowed. Right now they have no place to do it.
    So the challenge for the State of Ohio, the Army Corps, and 
the EPA for that matter, State for sure and hopefully Federal, 
is to think outside the box because I think the dredge material 
can be an asset instead of a liability, but we have to think 
outside the box.
    And now in Cleveland, what's interesting about that, we 
only have about 10 percent as much as Toledo as PCB, but there 
is--one of the proposals for working on the plan to solve the 
problem because they've run out of CDF space, is to take a 
dryer material and rotate it out and we have a land-issue in 
Cleveland, they're tearing down all the houses and they got 
basements to fill, which is in close proximity to the lake 
there, so that's a possibility that the port of Cleveland's 
pursuing, and also ODOT has some need for it.
    And another thing the port of Cleveland is doing, I have to 
give them kudos, too, it's called a bed-load interceptor, they 
put it up far up the Cuyahoga River past the dredge area and 
try to collect the sediment that comes in. It's kind of one of 
the new technologies that's going in, and everybody's 
supportive of it, but we do not know how sure it's going to 
work. Hopefully it would take 40 percent or more of the 
dredge--the sediment that's coming in.
    I want you to be aware of that because I think we have to 
sometimes think outside the box and that's why I get frustrated 
with the EPA. They have a tendency to be more come out with the 
hammer and not work to solve some problems. And I know in the 
President's budget he increased the funding for the regulatory 
side, but for compliance to help solve problems the President's 
budget decreased that part. So I'm a big soil and water guy and 
NRCS so I think there's some things we can do.
    But I just want to close here, back on the WOTUS, I think 
it's loud and clear that there's a lot of problems out there 
maybe you can fix in the final rule. I don't know. I don't 
know. I don't have a lot of confidence, no disrespect. That 
happened in the final rule. I think we need to take a pause and 
go back and look at this with the States in the public forum as 
I think Congress should really be doing that, and there will be 
some bills offered here in the near future, both in the Senate 
and in the House, I'm pretty confident of that. And we want to 
make sure it's done right and not add a lot of cost to States 
and local governments.
    And we had, in that bicameral hearing in the second panel, 
representatives from States and local governments, and there's 
a concern, I'm sure you're hearing that, and we need to, as our 
elected representatives and as a servant of the public that we 
need to make sure that we're serving the public in the best way 
we can, and we can still protect the environment and grow the 
economy.
    So thank you for coming and the meeting is adjourned.
    [Whereupon, at 1:05 p.m., the subcommittee was adjourned.]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
  
</pre></body></html>
